<html>
<title> - WOMEN IN SCIENCE AND TECHNOLOGY</title>
<body><pre>[Senate Hearing 107-1125]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1125



                    WOMEN IN SCIENCE AND TECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 
                               AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
91-728                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                              ----------                              

             Subcommittee on Science, Technology, and Space

                      RON WYDEN, Oregon, Chairman
JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia                         TED STEVENS, Alaska
JOHN F. KERRY, Massachusetts         CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MAX CLELAND, Georgia                 KAY BAILEY HUTCHISON, Texas
JOHN EDWARDS, North Carolina         SAM BROWNBACK, Kansas
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on July 24, 2002....................................     1
Statement of Senator Allen.......................................     6
Statement of Senator Boxer.......................................     4
Statement of Senator Edwards.....................................     1
Statement of Senator Wyden.......................................     1
    Prepared statement...........................................     2

                               Witnesses

Boitel, Ana Maria, Chair, Women in Technology....................    23
    Prepared statement...........................................    25
Johnson, Dr. Kristina M., Professor and Dean, Pratt School of 
  Engineering, Duke University...................................     8
    Prepared statement...........................................    12
Koplovitz, Kay, Founder and Principal, Koplovitz and Company.....    15
    Prepared statement...........................................    17
Stueber, Nancy, President, Oregon Museum of Science and Industry.    19
    Prepared statement...........................................    21

 
                    WOMEN IN SCIENCE AND TECHNOLOGY

                              ----------                              


                        WEDNESDAY, JULY 24, 2002

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room 
SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Subcommittee will come to order. This 
afternoon the Senate Subcommittee on Science, Technology, and 
Space convenes the first Senate hearing in 20 years dedicated 
primarily to the issue of women in the hard sciences. With 
women representing such a tiny fraction of the professionals in 
these vital fields, it seems incredible that this topic has 
been invisible for so long. I will have more to say about that 
in just a few minutes, but first I want to recognize our 
colleague, Senator Edwards, for his comments, since he is on a 
very tight schedule.
    He has done excellent work on a lot of issues before this 
Subcommittee, most particularly the cyber security legislation, 
which recently, as a result of Senator Edwards' good work, has 
been put into a bipartisan agreement and will be ready for the 
Senate floor soon. Senator Edwards, thank you for your good 
work, and we welcome your statement.

                STATEMENT OF HON. JOHN EDWARDS, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Edwards. Thank you, Mr. Chairman, for your good 
work and your leadership on this and holding this hearing. It 
is my pleasure today to introduce Dr. Kristina Johnson. Dr. 
Johnson is Dean of the Pratt School of Engineering at Duke, one 
of only 13 women deans of engineering schools in the United 
States. She was hired as Dean of the Pratt School in 1999. 
Prior to joining the Duke faculty, Dr. Johnson was professor at 
the University of Colorado at Boulder. She earned her 
bachelor's, master's, and doctoral degree in electrical 
engineering from Stanford. Her area of expertise is photonics, 
optical signal processing, liquid crystal electro-optics and 
displays. She has published more than 140 refereed papers and 
proceedings, and holds more than 40 patents, or patents 
pending. She is also an entrepreneur. She co-founded four 
companies in Boulder, including one that makes color components 
for next-generation high definition television.
    Particularly important to North Carolina and to Duke is Dr. 
Johnson's leadership in steering the Pratt School through an 
expansion that will more than triple the existing lab and 
classroom space. This important effort will help add to North 
Carolina's growing reputation as one of the country's centers 
of cutting edge research and development.
    Dr. Johnson, we thank you very much for being with us 
today. You are a role model for women in all professions, not 
just yours. We congratulate you on your successes, and we 
welcome you and look forward to hearing your thoughts.
    Senator Wyden. Thank you, Senator Edwards, and we very much 
appreciate your being here. You are absolutely right, Dr. 
Johnson is a stellar scientist, and it is going to be excellent 
to hear from her.
    I am going to put my prepared statement into the record. I 
would welcome our colleague, Senator Boxer. This meeting has 
come about, to a great extent, because of Senator Boxer's 
leadership. Senator Boxer has consistently, and in a variety of 
forums, decided to rock the boat on this issue; to have so many 
women--so many talented women--in this country, but have so few 
in the hard sciences, is unacceptable.
    It is unacceptable from the national security standpoint, 
and it is unacceptable from the standpoint of meeting the 
industrial needs of our country. Senator Boxer has really 
championed the effort to put in place the necessary policies to 
turn this situation around, so Senator Boxer, we welcome you; I 
think if I was to find one person in the U.S. Senate to bring 
some passion to this cause it would be you, and we thank you 
for your leadership. Just proceed as you would like.
    [The prepared statement of Senator Wyden follows:]

                 Prepared Statement of Hon. Ron Wyden, 
                        U.S. Senator from Oregon

    This afternoon the Senate Subcommittee on Science, Technology, and 
Space convenes the first Senate hearing in 20 years dedicated primarily 
to the issue of women in the hard sciences. With women representing but 
a tiny fraction of the professionals in these vital fields it seems 
incredible to me to have the Senate librarian confirm that this topic 
has been invisible in this body for so long.
    No more. As Chair of this Subcommittee, I'm going to do everything 
I can to triple the number of women working in the hard sciences in the 
next 10 years. I'm convinced that the underrepresentation of women in 
these fields did not happen by accident--women have been actively 
discouraged from careers in math, science and technology.
    Today we're going to listen to women leaders who can tell us the 
hows and whys of this issue. Then we are going to use their 
recommendations and those of other women leaders to rock the boat and 
stay at it until there is real, measurable change.
    In this age, women excel in professional sports. A woman is a top 
adviser to the President. Women are considered a key voting bloc by 
every political pundit. The discouragement of women and girls from 
fields of math and science might seem to be a myth. But society 
stereotypes scientists as older white men in white lab coats. One toy 
company even marketed a talking doll that told young girls, ``Math 
class is tough,'' but also said ``shopping is fun.'' Stereotypes that 
girls shop while men do science do not help.
    If a doll that talks down math to girls doesn't sound like a 
serious threat, consider this: research indicates that girls lose 
interest in math and science somewhere around the junior high school 
years. These are the same years when future scientists have developed a 
strong interest in the sciences. Sixty-one percent of scientists state 
that they first became interested in science before the age of eleven. 
By 8th grade, twice as many boys than girls show an interest in 
science, engineering and mathematics careers.
    Research also indicates that many girls are actively discouraged 
from pursuing math and science, whether by family members or their 
teachers. In this case, I'm not talking about a doll with a subtle 
message. A 2000 Congressional Commission found that ``active 
discouragement . . . contribute[s] to girls' lack of interest in 
[science, engineering and technology] careers.'' You will hear stories 
today from successful women who know all too well the barriers facing 
women in math, science and technology. With such negative road signs, 
it's not surprising that so few girls choose these paths.
    There are some encouraging statistics these days; the number of 
women enrolling in science and engineering programs is up. However, 
those statistics are a bit deceiving. When you boil the surveys down to 
the so-called ``hard sciences'' like physics and engineering, the 
number of women entering these fields is flat or even falling.
    The bottom line is clear: the Bureau of Labor Statistics reports 
that only 10 percent of the 2 million scientists and engineers working 
in the United States are women. Only 7 percent of the country's 
aerospace engineers are women.
    Just last week in this hearing room, I heard from Kathie Olson, 
originally of my home state of Oregon. She's a former chief scientist 
at NASA, and has been nominated to serve as one of the President's top 
science advisors. At her first nomination hearing, Kathie Olson told an 
all-too-common story of how she did not like science in high school. 
She hated it. It was not interesting to her. She decided that in 
college, she would not pursue science at all.
    But while Kathie was not interested in the sciences, she was 
interested in having a good schedule. Somehow the only class that fit 
into her afternoon schedule was Biology. Kathie Olson reluctantly took 
Biology, but then something great happened. A fantastic teacher made 
science interesting. The teacher took an active interest in Kathie 
Olson and became her mentor. Because of this mentor, Kathie Olson 
pursued what became a passion for science and today, she is one of our 
nation's premier neuroscientists.
    So, while Kathie Olson is a success story, I have to wonder: how 
many Kathie Olsons does America lose each year because girls and young 
women lose interest in the sciences? How many Kathie Olsons are lost 
because young women are told not to pursue the sciences? How many 
Kathie Olsons are lost because young girls are not exposed to 
successful women scientists as role models and mentors?
    Unfortunately, while government statistics can illustrate how few 
women are pursuing careers in the maths and hard sciences--they cannot 
tell us how many Kathie Olsons we lose. What we do know is that every 
day that passes without addressing the issue of girls in math and 
science is a day that great potential is lost. A girl being told today 
that she can't do science, could be one of the nation's greatest 
researchers tomorrow. And America desperately needs more scientists, 
more mathematicians, and more technology experts in the pipeline. The 
events of the last year have made it clear that the lives of millions 
of people may depend on this country's ability to find scientific 
solutions and responses to new threats.
    The Hart-Rudman Commission on National Security to 2025 warned that 
America's failure to invest in science and to reform math and science 
education is the second biggest threat to our national security. It 
warned that only the threat of a weapon of mass destruction in an 
American city is a greater danger. Experts say that at a time when 
scientific and technological expertise is more necessary to national 
security than ever, math, science and technology professions are 
suffering from a shortage of skilled workers.
    At a time of mass retirements, when fewer and fewer students are 
earning degrees in these fields, the percentage of women doing so is 
very small. Women, therefore, may represent America's best hope to grow 
the numbers of experts needed to meet challenges like terrorism, 
biological threats, technological sabotage, and chemical attack.
    Today this Subcommittee has brought together women who exemplify 
that hope. Today's witnesses have excelled in areas where men have 
traditionally dominated. While these women are all success stories, 
just as important as these women's success is the fact that they are 
role models for other women. As the stories of Kathie Olson and others 
tell us, an important element in helping women overcome the various 
barriers to succeeding in math and the hard sciences is an active role 
model and mentor.
    With us today is Nancy Stueber, president of the Oregon Museum of 
Science and Industry (OMSI). One of the nation's top ten science 
museums, OMSI is a scientific, educational and cultural resource 
dedicated to improving the public's understanding of science and 
technology. As part of this mission, OMSI offers several programs 
targeted at keeping young girls interested in the maths and sciences.
    Also here today is Kristina Johnson, Dean of the Pratt School of 
Engineering at Duke University. Dean Johnson is an internationally 
known expert in optics, signal processing and computing. She is an 
accomplished academic, an inventor with at least 30 patents, and also a 
businesswoman, having co-founded a company called ColorLink, Inc. Her 
work in academia has positioned her as a role model for aspiring 
scientists throughout the country.
    I am also pleased to welcome Kay Koplovitz. Ms. Koplovitz is a 
national leader and pioneer in the field of cable television, a 
successful entrepreneur, seasoned venture capitalist and author. She 
was the first woman to head a television network when she founded USA 
Networks in 1977. In 1998 she was appointed chair of the National 
Women's Business Council. She used that leadership position to launch 
Springboard 2000, now known as Springboard Enterprises, an organization 
that works to get venture capital for women entrepreneurs.
    Also testifying today are Ms. Ana Maria Boitel, the chair of Women 
in Technology, and my colleague Senator Barbara Boxer, with whom I 
learned about this problem from women in science and technology.
    Let me tell you what I'm hoping to find out today--and I know that 
may be a shock, that a Senator is walking into a hearing without a 
preconceived conclusion. There are a lot of commissions and blue-ribbon 
panels studying the issue of women in science, and there are some very 
good programs across this country making a real difference in the lives 
of individual girls. What I'm hoping to find out from our witnesses 
today is, whether they feel it's possible to synthesize all that's 
known about the barriers to women in science and really, finally turn 
the tide of discrimination from grade school to graduate school.
    I want to hear what these women think it will take to triple the 
number of women and girls in the hard sciences over the next decade. I 
want to hear what their colleagues think, and then I want to work with 
them and with my colleagues on a thoughtful plan of action. I'm 
grateful to our witnesses for providing guidance today.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you. Maybe I should start off by 
thanking you, Mr. Chairman. Without you, we would not be here 
today, and we both went to a very important meeting that really 
stunned both of us when we looked at the situation, and you are 
making a move here to turn things around, and how much I 
appreciate it as to all women who care about it, and all men.
    The three of us all have daughters at different ages, and 
we know that those females, if you will, because some of them 
are quite young, have the ability to do just about anything 
they set their mind to do. We know that because we watch them, 
and yet when you look at the broader picture you step back and 
we see a disturbing trend, so let me go through this. It will 
take about 3 minutes, and then I will be done.
    The statistics are clear. The women currently represent 47 
percent of the total U.S. workforce. They constitute only 29 
percent of the technology sector of the workforce, and so we 
are 47 percent of the total workforce but only 29 percent of 
the technology sector workforce, and while women hold 12.4 
percent of board seats in the Fortune 500, which in itself is a 
pretty gloomy statistic, 12.4 percent of the Fortune 500, they 
hold only 9 percent of the seats on boards of directors at 
telecommunications media and Internet firms.
    The roots of these statistics lay in the barriers that 
women face both before they enter the workforce and after they 
secure their first job with a firm, and so when you really dig 
behind this terrible statistic--Senator Allen, I am so glad you 
are here--when you dig behind these terrible statistics in 
terms of women in the technology workforce and women on boards 
of directors, what we find is there is a problem before they 
enter the workforce, and there is a problem after they secure 
their first job with a firm.
    In a Women's Foundation study on the economic status of 
women in California, 34 percent of girls reported being advised 
not to take math in their senior year of high school, so there 
seems to be an affirmative push to push girls out of math, but 
even those who choose science and engineering find that once 
they get into the technology industry they are often left out 
of the male networks that lead to success.
    In a study conducted last year by the consulting firm, 
Deloitte & Touche, 60 percent of women in the high tech 
industries said they would choose another career if they had to 
do it over. Mr. Chairman, that is another terrible statistic. 
60 percent of the women are not that happy having made this 
choice. Two-thirds said the glass ceiling still keeps them from 
positions of leadership in the industry. These systemic 
barriers and attitudes and structure must come down.
    First, we must stop discouraging women from pursuing their 
interest in science, math, and technology. Then we must 
encourage more women to pursue careers in these fields, and we 
must do more to promote women once they get there. Clearly, the 
government cannot do that, but we need to talk about these 
issues and send a message that it is only right. The technology 
sector needs women, and women deserve the opportunity to 
succeed.
    If I might diverge from my written testimony, I saw a 
wonderful interview that Charlie Rose did with Reynard Lewis, 
who is a very well-respected, rather conservative historian, 
and Charlie Rose said to him, ``If you had to name one reason 
why the Muslim countries are not doing as well as they should, 
what would it be?'', and he said, ``The women. The women are 
left out.''
    So we know when women are brought in that they make a 
tremendous contribution.
    The great thing about the U.S. Senate is, we are all equal 
here. I mean, I can hold up a bill and you can hold up a bill.
    It does not matter. So the rules around here mitigate in 
favor of equality, and that is a fact.
    By the way, it is a little different over on the House 
side, and Senator Wyden knows this, because there, seniority 
really is the power. Here, you just get the power by virtue of 
the fact that you are here, but it is an interesting model, I 
would say.
    There are some notable women who are proving that once 
given the opportunity, women can lead, and I want to just talk 
about one of them, Meg Whitman, listed the second most powerful 
woman in business. She is at eBay, and Fortune Magazine did a 
story on her. They said, ``Whitman, who at times took heat for 
not managing aggressively enough''--in parentheses I say, 
``good girl, Meg''--``she never overpromised investors. 
Instead, she has diligently delivered above-target profits 
every single quarter.''
    So here is a woman who stepped out and did it in a little 
bit of a different way, and is doing well.
    So it seems to me--Mr. Chairman, I know that you have 
called for tripling the number of women graduates in math, 
engineering, and the sciences. Senator Lieberman has also 
called for the National Science Foundation to develop grant 
programs targeted at increasing the number of women and other 
under-represented groups in science and tech. I strongly 
support both of these initiatives, but I hope we can, all of us 
together in a bipartisan way, call upon executives and tech 
firms, as they are currently looking over everything that they 
do anyway, to look at the issue of women in high tech and make 
a commitment to recruiting, promoting, and mentoring women, and 
I would hope that we could work together to see if we can do 
something like that. We cannot control what anybody does out 
there, but we can sure talk to them about it and I think if we 
do that--sometimes I find that people are not even aware of 
what exactly is happening on the ground, so we can play a big 
role there.
    Information technology jobs are highly skilled and highly 
paid jobs. They constitute some of the best opportunities in 
our workforce, and I believe this will increase in the future, 
and I think it is bad for women and it is bad for business to 
have women be excluded, not on purpose, but because we are not 
really paying attention to their opportunities.
    So I think industry needs the skills that women bring to 
the workplace. Women will show us all what we can achieve when 
talent truly trumps gender. Every time we have just said talent 
is the issue, women have shown that they can be right up there.
    So that is my statement. This is something that we are not 
going to change overnight, Mr. Chairman, but I cannot tell you 
how happy I am that we are looking at this, because women are 
making great strides, no question about it, but we are being 
held back because of things in our society do not make sense, 
like telling girls, do not do math, and that is just not good.
    So thank you so very much. I pledge to work with you and 
the Senators here and others who want to help on this issue.
    Thank you so much.
    Senator Wyden. Well, it is great to have you kick all of 
this off, Senator Boxer, and we are going to be looking to you 
often in terms of this effort.
    Senator Boxer. And I will be there.
    Senator Wyden. You have suggested there are lots of factors 
at work here. I mean, it is everything from dolls that talk 
down math for young girls, to much more complicated issues of 
discrimination in terms of salaries, so you have laid this out 
very well for us and we appreciate it, and Senator Allen has 
joined us. Unless he has any questions for Senator Boxer, what 
I think we will do is, we will excuse you and then recognize 
Senator Allen.
    Senator Boxer. Thank you so much. I have 200 Californians 
waiting for me in the Hart Building.
    Senator Wyden. We will let you go. Thank you.
    Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, and I thank Senator 
Boxer for her eloquent, passionate remarks, and I appreciate 
you having this hearing. I particularly appreciate Ms. Ana 
Maria Boitel--I like to use the French pronunciation--for 
appearing here today, and all of our witnesses who hopefully 
will share with us some concrete, tangible ways that we can 
foster greater participation by women in the fields of science 
and technology.
    This is an issue of growing importance to our economy, as 
well as our military strength and capabilities, and we have 
heard this even from Sean O'Keefe with NASA, the aging of the 
population of the engineers and the scientists with NASA, and 
the fact that there are not enough people of any gender, of any 
race, of any nationality, ethnic group in this country that are 
graduating from our colleges and universities with the 
capabilities and the needs we have for our success as a country 
economically, as well as in the security sense, in mathematics 
and technology and science.
    A National Commission report entitled, ``Before It's Too 
Late,'' was issued in September of 2000 and it showed that jobs 
in the computer industries and health sciences requiring 
science and mathematic skills will increase by 5.6 million by 
the year 2008. In addition, the report predicts that 60 percent 
of all new jobs in the early 21st Century will require skills 
held by just 20 percent of our current workforce. This 
indicates that we need to have everyone, regardless of gender, 
getting the education, getting the knowledge, the capabilities 
and skills to seize those opportunities and those good-paying 
jobs.
    We also note, according to the National Science Foundation, 
that only 28 percent of graduate students in physical and 
computer sciences, and that only 19 percent of the graduate 
students in engineering, I should say, are women. There are a 
number of examples of places that I think are doing a fairly 
good job and maybe are a model for other institutions of higher 
education.
    For example, Virginia Commonwealth University, VCU, 53 
percent of the students there majoring in sciences are female. 
One-third of the faculty in the sciences are female. At VCU's 
School of Engineering, which is a wonderful engineering school 
that focuses on microelectronics and others, about 23 percent 
of their students are women, which is higher than the national 
average. Also, having spoken at the first graduation of their 
engineering school a few years ago, I know that there is a 
larger percentage of minority students in these fields.
    The other thing that is interesting is that in medical 
schools, which is a science--and we should not forget medicine 
and the health fields as science--at VCU, Virginia Commonwealth 
University, 47 percent of the medical school student body are 
women.
    I think what is important is, having two daughters and a 
son, I think it is important for young girls, or young boys, to 
have good role models, and some of that you alluded to. The 
same was alluded to by our colleague, Senator Boxer, and there 
have been some great role models, and I think that needs to be 
emphasized. Whether it was Madame Curie, or whether it was Dr. 
Sally Ride, the first American female astronaut, Dr. Shannon 
Lucid, the new NASA chief scientist, it is important that we do 
have these role models for our children, for young people who 
see the relevance of knowing mathematics, knowing science.
    It also is important that in our schools, our public 
schools--and this is not something that necessarily the Federal 
Government should dictate--but each State should have 
standards, and to get a high school diploma it means that you 
know a certain level of academics in various subjects, whether 
that is English, whether that is mathematics, whether that is 
science, whether it is economics, and regardless of gender. In 
Virginia, to get a standard degree in mathematics I know may 
not be as high as some of our witnesses would like, but you do 
have to have Algebra I, Algebra II, and Geometry. I know some 
will testify they ought to have Trigonometry as well, but that 
is required for anyone graduating from Virginia high schools, 
so that is setting higher standards and higher levels of 
mathematics and science, which are important for our 
youngsters.
    So we know that there may be some barriers, there may be 
some challenges. What we want to do, Mr. Chairman, I think on 
this Subcommittee is listen to these experts, these esteemed, 
knowledgeable witnesses to see how we can surmount the 
challenges, if there are any barriers, knock down those 
barriers to make sure that every person, regardless of their 
gender in this country, seizes the great opportunities for 
their own lives, to lead a fulfilling life, but also to allow 
this country to compete and succeed with anyone in the world.
    And I thank you, Mr. Chairman, for this hearing, and for 
our witnesses sharing their insight with us.
    Senator Wyden. Very well said, Senator Allen, and as we 
have done on everything that has come in front of this 
Subcommittee, we will be working on a bipartisan basis on these 
issues.
    We are going to welcome now Dr. Kristina Johnson, Ms. Kay 
Koplovitz, Ms. Nancy Stueber, and Ms. Ana Maria Boitel, if all 
of you will come forward.
    Thank all of you very much for coming and for making it 
possible in your schedules to be here. What we do in front of 
this Subcommittee is, we ask everybody to take about 5 minutes 
or so. We are going to enter all of your written remarks into 
the hearing record completely, so please just outline your 
thoughts on our stated goal. We have set out the goal of trying 
to help put in place policies that would triple the number of 
women in the hard sciences in the next 10 years. I would be 
very interested in your thoughts now with respect to what you 
think the Congress should be doing in order to have the 
policies that would help us obtain those objectives.
    What are the things we should be working on as it relates 
to Government and the private sector and perhaps to grade 
schools? But almost put yourselves on this side of the dais and 
give us your recommendations of what kind of policies you think 
would be most likely to help this country triple the number of 
women in the hard sciences.
    So we welcome you, and why don't we begin with you, Dr. 
Johnson.

STATEMENT OF DR. KRISTINA M. JOHNSON, PROFESSOR AND DEAN, PRATT 
             SCHOOL OF ENGINEERING, DUKE UNIVERSITY

    Dr. Johnson. Senator Wyden, thank you very much for this 
opportunity. Senator Wyden, Senator Allen, Members of the 
Subcommittee on Science, Technology, and Space and 
congressional staff, I am honored to be here today to share my 
thoughts with you on the barriers to the involvement of women 
and girls in science and technology, and to perhaps make some 
simple recommendations that might help us achieve the goal you 
have set, which perhaps in the year 2002 is the ``man on the 
moon'' goal, to triple the number of girls pursuing a career in 
science and engineering.
    My name is Kristina Johnson. I am Professor of Electrical 
Engineering and, as introduced by Senator Edwards, Dean of the 
Pratt School of Engineering at Duke, and a very gracious 
introduction from someone with loyalties to NC State and 
Carolina.
    Senator Allen. My loyalties are to the University of 
Virginia.
    [Laughter.]
    Dr. Johnson. I am an engineer because I had terrific role 
models and I had extraordinary mentors. My father was an 
engineer, and my mother simply would not let me stop taking 
math and science in junior high and high school, and that is 
why I am an engineer today.
    What do engineers do? We solve problems. We generate 
wealth. We create high-paying jobs for our citizens, and that 
is why to be globally competitive in this particular century of 
all centuries, we must maintain and, in fact, increase our 
leadership in science and technology, and this is going to be a 
major challenge in our society, as was noted by Senator Boxer, 
because the number of students graduating from schools of 
engineering has steadily declined over the last generation. And 
at the same time, our country's majority demographics are 
changing from male and Caucasian to female, African American, 
Asian, and Hispanic, and we need to ensure that these groups, 
currently under-represented in science and technology, are 
attracted to careers in these fields.
    The strength of this Nation is in our diversity, and as 
noted earlier, for example, women constitute less than 20 
percent of the graduates from schools and colleges of 
engineering in the country, and minorities less than 15 
percent. What was once a moral obligation is now a national 
imperative. Simply put, unless we have more women and 
minorities in science and engineering fields, we will not have 
the intellectual capital to address the major economic 
environment and security problems that are facing our country.
    So what are the barriers to entry. I see two major barriers 
to women getting involved, advancing and succeeding in 
technology fields. The first barrier you spoke to, Senator 
Allen, and that is there is a fundamental problem, the level of 
competency we require of our young people, both men and women, 
in math and science. Many high schools allow our students to 
opt out of 4 years of mathematics and science classes, but a 
true college preparatory education must include 4 years of 
these subjects.
    In fact, you might think of math and science as the 
vegetables in the academic food group, and if math and science 
are the vegetables, then trigonometry is the broccoli, and I am 
sorry to say calculus is the brussels sprouts, but just like my 
mother made us eat broccoli and brussels sprouts at dinner, she 
made me take math and science. It is not acceptable to avoid 
math just because we do not like it.
    And what is the implication of avoiding math? The 
implication now is that America's 12th grade students are 
ranked among the lowest in the world in mathematical 
proficiency, and it is because we do not place the same 
expectations on the hard sciences in high schools as we do on 
the social sciences, and the drop among girls is even more 
dramatic.
    So the first barrier is, we have to require trigonometry, 
broccoli, and calculus, because since most universities do not 
teach trigonometry, and without trigonometry, you cannot get a 
degree in engineering. Girls are being encouraged, as Senator 
Boxer said, not to take math in their senior year. In fact, 34 
percent do not take trig. Therefore, you are already taking a 
third of the girls out of the equation for pursuing a degree in 
engineering or the sciences. That is the first barrier.
    The second barrier is the critical lack of role models and 
support for these role models. I have had fantastic mentors, 
and there is a subtle difference between mentors and role 
models. Mentors can help and assist and take an interest in 
each person, but a role model is someone who looks like you, 
and it is like, ``Hey, I look like her or him, therefore I 
belong.'' So what is preventing more girls and women becoming 
faculty members, which are the role models in our universities 
in engineering and sciences? Currently, the percentage of women 
engineering faculty is 8 percent of the total professoriat in 
the academy.
    Studies show that--one study in particular from NSF 
suggests the level of financial aid for women is slightly 
different at the graduate level than it is for men, that women 
more often, at least in some fields, in mathematics in 
particular, use their own funds and teaching assistanceships 
when they are trying to pursue a Ph.D., as compared to their 
male counterparts that are receiving research assistanceships. 
If a Ph.D. is the union card of the academy, required to obtain 
a tenured track position, we are requiring women to use more of 
their own funds in tech, not research, which is what the Ph.D. 
is about, in order to get through the graduate program.
    So what are the things that can work? Well, to overcome the 
first barrier, again, I would say that we need to require all 
college-bound students, girls and boys, to take math and 
trigonometry and possibly calculus. It is too easy for them to 
opt out of that requirement, and it is a real threat to our 
economic growth and national security.
    Now, once they take math, it is not enough just to take it. 
We need them to excel in it. So how do you get them to excel in 
it? You start programs in about the 5th or 7th grade. It has 
been shown by the National Science Foundation that that is when 
girls and minority students start to lose their interest in 
math. Ninety percent of the women that are pursuing careers in 
technology say they are doing it because of their ability to 
align their career with some social agenda, or society benefit. 
Fifty percent of the engineers studying at Duke in biomedical 
engineering are women, as an example.
    So how do you hook them? How do you get them to think about 
science and engineering? You have to weave it into the total 
fabric of the curriculum. That means that when you talk about 
geometry, you can have girls design animals like this one as 
was done by a program my sister, Dr. Suna Cohen, conducted, 
sponsored by the National Science Foundation. I am not sure 
what you call this animal, but it is made up of equilateral 
triangles in multiple polygons, and you look at the costumes 
and you look at the colors, and all of a sudden, geometry and 
math comes alive.
    My sister developed a program called Making the Connections 
that was funded by the National Science Foundation, and it was 
for 3rd through 5th grade girls in the inner city schools in 
Denver. I helped her with this program. These are the drawings 
of scientists and engineers made by these girls before taking 
the program. At least someone laughed. That is good.
    After the 3-week program, the same girls started drawing 
these pictures. They looked more like themselves, because they 
had the opportunity to see themselves as scientists and 
engineers.
    There are many other programs throughout the country. In 
fact, in my written testimony I refer to these as the 
``intellectual victory gardens'' of the 21st Century. They are 
cropping up all over the country. We need to support them.
    And who funds these programs? It is the National Science 
Foundation. The NSF is the premier Federal agency for 
encouraging women and minorities into these innovative 
programs. They are sensitive to the discrepancy between the 
composition of the general workforce and those that are going 
into science, technology, engineering, and math.
    NSF has made this commitment. They delivered on this 
commitment. In the last 20 years, they have doubled the number 
of women that have gone into science and engineering.
    I would like to conclude, because I notice the red light 
went off, and being an optics person I can see color, and so I 
should wrap up before I am asked to do so, but let me just say 
to Members of the Senate Subcommittee that there are two things 
we can do, tougher expectations of our students, and doubling 
the budget of the National Science Foundation in the next 5 
years, because it is NSF that supports science and engineering 
diversity in this country.
    You know, I was a varsity athlete at Stanford. I played 
field hockey and lacrosse, and what I cannot understand is why 
over the last 30 years we have been able, through Title IX, 
which covers our academic educational programs, to increase the 
number of girls participating in traditionally what was 
considered 30 years ago not something girls did, sports. 
300,000 high school girls participated in sports in the early 
1970s. Today, it is 3 million. We have got an order of 
magnitude increase in the last 30 years.
    So I would say, what is the issue? Maybe there is a link to 
Title IX in terms of the aid, the support, the child care, I am 
not sure, but there is something going on there in our academic 
university which is not achieving the same breakthrough we have 
seen with Title IX in athletics. I think we all share the human 
desire to be part of a higher purpose. I share your goal of 
tripling the number of girls going into science and technology 
professions, and I would love to make that our man on the moon, 
or I should say, person on the moon goal for this decade. It 
is, in fact, our intellectual call to arms to commit ourselves 
as a Nation to provide a superior technical education to our 
children so that by the time our 4th graders are seniors, which 
will be in the year 2010, that they will be among the best in 
the world in math and science proficiency.
    I urge you to support more rigorous high school standards 
in math and science and to double the budget of the National 
Science Foundation, because they are making a difference.
    Thank you for allowing me to go over and for listening to 
my remarks.
    [The prepared statement of Dr. Johnson follows:]

  Prepared Statement of Dr. Kristina M. Johnson, Professor and Dean, 
              Pratt School of Engineering, Duke University

    Senator Wyden, members of the Subcommittee on Science, Technology 
and Space, and congressional staff, I am honored to have been invited 
to share my thoughts with you today on the barriers to the involvement 
and advancement of women in science and technology, and to make 
suggestions on how we can lower these barriers, to the benefit of 
society.
    My name is Kristina Johnson. I am a professor of electrical 
engineering and dean of the Pratt School of Engineering at Duke 
University. I am a third-generation engineer. My father, Robert G. 
Johnson, was an electrical engineer with Westinghouse for 37 years, and 
my grandfather, Charles W. Johnson, was the engineering assistant to 
George Westinghouse himself. I had, therefore, extraordinary role 
models and mentors. I never knew I couldn't be a scientist or engineer 
because those closest to me wouldn't let me. Just the opposite, I was 
led to believe I could be one. While every girl doesn't have the 
benefit as I did of parents who convinced me I could be an excellent 
engineer, the principles behind my success should provide a road map 
for other young women and for programs to ensure they have the same 
vision I did.

Background

    What do engineers do? We generate wealth and provide high-paying 
careers for our citizens. In the last century, engineers built the 
transportation, communication and industrial infrastructure that 
created the greatest nation on earth. It is stunning that at the 
beginning of the 20th century, the main mode of transportation was 
horse and buggy, limiting travel on a daily basis to a short radius of 
the home. It took at least a week to go across the country by train, 
and the telephone was in its infancy. At the end of the century, we had 
the technology to travel anywhere in the world within hours, and to 
communicate to a billion people anywhere, anytime, including outer 
space, and within a fraction of a second. The resulting globalization 
opened up new markets and opportunities for historic economic and 
social growth.
    To be competitive in the 21st century global marketplace, and 
maintain our quality of life, we have an obligation to maintain our 
competency and leadership in engineering, science and technology. And 
this will be a major challenge for our society, as the number of 
undergraduates graduating from institutions of higher education with 
engineering and technology-based degrees has steadily declined over the 
past generation, from 77,000 in 1985 to 60,000 in 1998. Furthermore, 
our country's majority demographics are changing from male and 
Caucasian to female and African American, Asian and Hispanic. We need 
to ensure that groups currently underrepresented in science, 
engineering and technology are attracted to careers in these fields. In 
today's competitive global environment, we cannot afford to lose the 
human capital these groups represent.
    Women constitute less than 20 percent of the graduates from schools 
and colleges of engineering in this country, and our current minority 
population accounts for fewer than 14.7 percent of graduates in 
technical fields. What was once a moral obligation to promote diversity 
by providing equal opportunity for interesting, high-paying careers for 
all citizens is now a national imperative. Simply put, unless we bring 
more women and minorities into science and engineering fields, we will 
not have the intellectual capital to address the major economic, 
environmental, health and security issues facing our nation. Developing 
our underutilized human resources can be our competitive advantage.

Barriers to Entry

    What are the barriers to women getting involved, succeeding and 
advancing in technological fields? There are many, but none is 
insurmountable.
    My parents and my teachers assumed I could do the work and insisted 
that I take four years of math and science. The first barrier to 
women's access to engineering and science is a fundamental problem in 
the level of competency we require of young people--both men and 
women--in math and science. Many high schools allow students to ``opt 
out'' of four years of math or science classes, but a true college-
preparatory education must include four years of these subjects, as it 
includes four years of English. We disadvantage our students by 
permitting them to opt out. Maybe math is the broccoli of high school 
education. But we don't let our children get by without broccoli just 
because they don't like it. Nor should we let them avoid math just 
because they don't like it.
    The Third International Mathematics and Science Study published in 
1996 showed that America's 12th-grade students ranked among the lowest 
in the world in mathematical proficiency. Yet in the same study, our 
fourth graders scored above average as compared to their counterparts 
in the 26 other countries in the study. There is a steady decline 
between the fourth and 12th grades in the competency and 
competitiveness of U.S. students as compared to their international 
peers in science and mathematical understanding. The drop is even more 
dramatic among young girls. This is because we don't apply the same 
standards to math and science instruction and expectation of student 
competence as we do to the social sciences.
    Another barrier is developing confidence and competency in the 
basics required to pursue a career in engineering, science and 
technology. Studies indicate that girls and minority students start to 
lose interest in science and mathematics in the fourth or fifth grade. 
I never faced this dropoff because my parents and teachers expected me 
to succeed and do well in math, and I believed correctly that there was 
no reason I or any other young woman couldn't succeed in these areas of 
study.
    According to a report by Women in Electrical and Computer 
Engineering (WECE), women who succeed in graduating with engineering 
degrees, and pursuing technological careers do so because they have had 
the opportunity to develop confidence in these subjects through ``self-
efficacy''--competence in outside, extra-curricular technology 
activities where they gained confidence in their skills, and got 
``hooked on science and engineering.'' This is certainly true from my 
own experience. I successfully competed in high school science fair 
projects (actually winning first at state, and a first and second in 
the international fair). This success helped overcome times when I 
would question whether I was ``meant to be an engineer.''
    Engineering and technology careers are unfortunately saddled with 
the misperception of being dry, without interaction with people, and 
unattractive to women. In a study conducted by WECE, 90 percent of 
women polled cited altruistic reasons for choosing a career in science, 
engineering or technology. In fact, in engineering departments where 
opportunities to make social contributions are obvious, such as 
biomedical engineering, women make up a substantial percentage of the 
graduates. At the Pratt School at Duke, slightly more than half of the 
women we graduate earn degrees in biomedical engineering, where we are 
recognized as having one of the best and most demanding programs in the 
nation. We expect our women engineering students to succeed and convey 
this to them both in direct and subtle ways.
    A third barrier to inspiring women and minority students to pursue 
science and technology careers is the critical lack of role models and 
support. The ability to look at a professor and say, ``Hey, I look like 
her or him, therefore I belong here,'' is powerful. Currently the 
percentage of women engineering faculty is 8 percent of the total 
professoriat in the academy. As an undergraduate, I had only one woman 
professor, in a psychology course, and as a graduate student, I had 
only one woman professor, in a ``writing about science'' course. Had it 
not been for my parents and some of my teachers, I wouldn't have been 
able to see that I could make it. We need to identify and support young 
women engineers and to encourage them to be mentors and teachers of 
succeeding generations.
    We must attract a more diverse population to the professoriat. We 
need more women and minority students going to graduate school to 
provide the role models and mentors for our changing population. When 
they get to graduate school, we need to provide adequate support. Women 
graduate students more often support themselves in graduate school on 
their own funds, and/or by working as teaching and research assistants, 
while men are funded usually on research assistantships, allowing them 
to focus on the research necessary to obtain a Ph.D., the necessary 
degree for obtaining a faculty position in the academy.

Things That Work and Could Work: The Intellectual Victory Gardens

    To overcome the first barrier, we need to require all our college-
bound students to take math through trigonometry and advanced algebra--
if not calculus--and one course each in biology, chemistry and physics 
as a requirement for graduation from high school. It is too easy now 
for students to opt out of math and science, because they can meet 
graduation requirements with less proficiency than peers in other 
countries. This easy road is a real threat to our economic growth and 
our national security. We need the help of legislators at the state and 
national levels to create incentives and programs to support students 
and teachers to make science and math proficiency a national priority.
    To capture the minds of young girls, in the early 1990s, my sister, 
Dr. Sara Cohen, and I developed a program for the National Science 
Foundation called ``Making the Connection.'' Together with Denver 
Public Schools and in partnership with Metropolitan State College, we 
designed for inner-city girls a three-week summer camp that provided 
hands-on experience with science and math concepts, but placing them in 
a social context. For example, when we studied Galileo, we covered not 
only his findings and discoveries, but the times he lived in, including 
its language, dress and poetry.
    At Duke, we have a similar program, headed by Pratt Professor Gary 
Ybarra. The Math Understanding through the Science of Life (MUSCLE) 
Program teams Pratt engineering students with area middle and 
elementary students to tend gardens, study worms, predict the weather 
and other projects aimed at boosting math skills.
    These are the kinds of intellectual ``victory gardens'' that are 
cropping up across the country. They are cultivating and sustaining 
math and science capabilities and interests in all our children, 
particularly in girls and minority students whose interests tend to 
wilt midway through elementary school. As these promising young people 
become adults, let's reap the rewards by continuing to support their 
aspirations and instilling such aspirations in youngsters who don't yet 
have them.
    Overcoming the inspirational barrier involves aligning engineering 
careers with social issues. It has been done through unique 
partnerships forged between and among universities, foundations, 
government and industry. I believe schools and colleges of engineering 
should emphasize technology in service to society. We must focus on 
``engineering'' better quality of life--life without pain (biomedical 
engineering), life without fear (technology for counter-terrorism), and 
life in harmony with the environment (appropriate use of our natural 
resources, and harnessing new sources of renewable energy).
    Wouldn't it be great if we could see the same advances in the 
academic world of science and engineering participation by women, as we 
have produced due to Title IX legislation--a tenfold increase in 
participation of girls in competitive athletics at the high school 
level and women at the intercollegiate level, just by insuring 
proportionate participation in scholarships that created tremendous 
opportunity. Furthermore, child care support would allow women the 
flexibility to pursue both an advanced degree and to start a family at 
the same time.

Summary

    In summary, I see three significant barriers that prevent more 
women and minorities from promising careers in science and technology:

    <bullet> Lack of fundamental math and science standards in high 
school curricula
    <bullet> Lack of role models and opportunities that inspire and 
cultivate interest
    <bullet> Lack of equal access to financial aid and child care for 
women in graduate school
    To overcome these barriers, I recommend three solutions:
    <bullet> High school curricula requiring four years of math (at 
least through trigonometry, if not calculus) and one year each of 
biology, chemistry and physics
    <bullet> Creation of national centers of excellence in engineering 
quality of life, including domestic security, international security 
and sustainable resources
    <bullet> Equal opportunity for financial aid and child care for 
women in graduate school, so we can create the next generation of role 
models

Conclusions

    We all share the human desire to be part of a higher purpose. In 
the 1960s, a goal that energized the nation was to put a man on the 
moon before the end of the decade. Since September 11th, I have tried 
to think about what we can do in the university, and specifically in 
schools and colleges of engineering to do our part to help prevent 
terrorism, both domestic and international. It is clear we are engaged 
in a different kind of war that must be won with advanced logistics, 
networking, sensors and communications systems. And we will need the 
most highly skilled technical workforce to succeed in this fight.
    This is not rocket science. Let us make our ``man on the moon'' 
goal for this decade a call to intellectual arms, to commit ourselves 
to providing a superior technical education to our children, so that by 
the time our current fourth grade students graduate from high school in 
2010, they will still be among the best in the world in math and 
science proficiency.

    Senator Wyden. Thank you very much, Dr. Johnson.
    Ms. Koplovitz.

            STATEMENT OF KAY KOPLOVITZ, FOUNDER AND 
                PRINCIPAL, KOPLOVITZ AND COMPANY

    Ms. Koplovitz. Thank you for allowing me to appear here. 
Senator Wyden and Senator Allen, it is a great pleasure, and to 
your esteemed colleagues and to my fellow panelists.
    I am going to tell a story, because I think the story is 
one that deserves attention in the progression of women in 
science and technologies, and the story is going to be one of 
entrepreneurs coming out of these fields, and what the 
prospects for their success are going to be.
    I was appointed chair of the National Women's Business 
Council in 1998, just after completing 21 years of running USA 
Networks, a company I founded in the 1970s. That was the year 
that venture capital was pouring into science and technology, 
and biotechnology companies. It was coming over the transom.
    It was coming in gross volumes. It looked like a fantastic 
opportunity for our women from the technology and biotechnology 
fields, and being charged with sort of marking the progress of 
women in these fields, I set out to find out where are the 
women?
    I turned to the equity markets because the billions of 
dollars were there. It is kind of like why bank robbers rob 
banks. They go where the money is. But what I found in the 
statistics from 1997 were shocking, but should not have been 
unexpected. Only 1.7 percent of the venture capital money in 
this country was backing women entrepreneurs from these high 
growth fields. Fueled with disbelief, I investigated.
    I could have taken a simple route and said women were being 
rejected, but the fact is, they were not. They were not even on 
the playing field. There was a total disconnect between women 
in these fields who wanted to be entrepreneurs and the people 
who were funding these companies. You might say, like the old 
country and western song, ``they were looking for women in all 
the wrong places.''
    I went across the country and interviewed maybe 50 venture 
capitalists asking them, ``Do you ever see women?''; ``Do women 
present their plans to you, what is happening to them?''; and 
basically, whether they were men or women, these venture 
capitalists, they said they just simply did not see them. It 
was the same answer over and over.
    So the women entrepreneurs did not know the venture 
capitalists, and the venture capitalists did not know the 
women.
    It was very clear that there was an elementary piece 
missing, and that was the human capital. There was no human 
connection between the two markets. That is why I created, 
along with my colleagues, an organization called Springboard, 
and in January of 2000, just 2\1/2\ years ago, we launched our 
first venture capital forum for women entrepreneurs in high 
technology, biotechnology, and life sciences. This was 
presented at the Oracle Conference Center in Silicon Valley. We 
went there, quite frankly, because that is the mecca of venture 
capital and we wanted to play on the major stage.
    Not everybody was supportive of that, by the way. A lot of 
people said we would not find enough women to present them, but 
we said, we will find these entrepreneurs. We will find them, 
we will train them to speak your language, we are going to put 
them through a very tough boot camp so they can learn the rules 
of the game of how to become entrepreneurs in these fields, and 
we are going to present them to you, and you are going to 
decide whether they are worthy of funding or not.
    You know what, the results were really astonishing. Over 
350 companies applied to be presented at that Springboard. We 
thought we would see about 100, and so we had more than three 
times as many apply. Out of those, 26 were selected to present. 
Out of those 26, 22 were funded, two merged their companies, 
one sold their company, and one did not get funded. These were 
astonishing results.
    Ultimately, the success of that Springboard series, that 
first presentation, really led to a national series of them, 
and we have now done eight in six different locations, in 
Silicon Valley, Boston, Northern Virginia, I might say, 
Chicago, New York, and Dallas. 214 companies have been 
presented. From the 2,000 that applied to be presented, 214 
were presented by us. 75 have been funded with over $750 
million in private equity money, and the astonishing fact is 
that today, 2\1/2\ years later, 96 percent of these companies 
are in business and growing. It is something of a remarkable 
achievement, and I must say there is no record to match it.
    The annual percentage of venture capital invested in women-
led firms in this short period of time has grown from 1.7 
percent to almost 6 percent, tripling--I guess I would say we 
have met your first criteria, to triple the performance in this 
area. While this was progress, and it is significant, it is not 
nearly enough.
    It is not just the equity markets that have been dragging 
their feet on women entrepreneurs, but the debt markets as 
well.
    We did a study of the Milken Institute back in the year 
2000 where we saw that women entrepreneurs were about one-third 
of the entrepreneurs in this country and only accessing about 
12 percent of the debt, the loans that were being made, and so 
women have been creating these businesses under conditions of 
capital starvation and are doing quite well.
    Some might say that women are sometimes described as more 
cautious than men are in projecting their businesses. This 
might be true, but I think it is standing them in good stead.
    There is no doubt that women are being successful as 
entrepreneurs, and women in high growth industries are being 
successful as entrepreneurs. They are clearly fueling our 
economy, and what women entrepreneurs need to understand is the 
financial markets better, and we are helping them to understand 
that.
    What policymakers can do to help, and what we can do here, 
is to ensure that the pipeline of women coming up in 
technologies and biotechnologies continues. Title IX, which has 
been mentioned here, has been so instrumental in the area of 
sports, and we can attribute a lot of leadership qualities to 
the participation in those programs. Four out of five executive 
women in corporate America have participated in sports while 
they were growing up. They attribute their leadership skills in 
large part to that participation, and what they have learned on 
the playing field. I maintain it is as applicable on the 
business field and in science and technology.
    We must guard against those forces who are trying to 
diminish the effect of Title IX. We must throw our doors wide 
open to the women coming through those programs and to 
encourage them, and we have heard some very encouraging support 
for these programs, but specifically what can the Federal 
Government do?
    Stand behind Title IX, increase its potency across all 
disciplines, because it is an education initiative, and it 
should be opening the doors even wider to women in medicine and 
technology and engineering and so forth.
    We have got to support the Small Business Administration's 
SBIC funds. Women who are in these areas who want to exceed as 
entrepreneurs need access to those funds to start and grow 
their businesses, and there is a third leg of this initiative, 
and it is called procurement. Here in the Federal Government 
there is a program, or at least a target to procure, it seems 
like a small amount, 5 percent of the goods and services of the 
Federal Government for women-owned firms rashly operating at 
about 2\1/2\ percent.
    You know, the same process that has been working for 
Springboard could work in this area. We could present viable 
companies to contractors in the Federal Government and I 
believe really increase their participation and help these 
companies grow, help women in these areas be successful. In 
essence, it is really time to move from talk the talk to walk 
the walk. We can do it. We have the tools. Springboard 
Enterprises, which is now a separate, nonprofit organization, 
has elevated thousands of women in technology and 
biotechnology, and we will continue our initiative, but it can 
be applied to other areas.
    We could use the same process to open up the doors to 
procurement, to science research grants, to a lot of 
initiatives within the Federal Government, and I would urge you 
to do so.
    After all, why would we trust or entrust the future growth 
of this country to only half the population?
    Thank you.
    [The prepared statement of Ms. Koplovitz follows:]

      Prepared Statement of Kay Koplovitz, Founder and Principal, 
                         Koplovitz and Company

    I was appointed Chair of the National Women's Business Council, a 
bi-partisan commission, in 1998, having just completed my 21-year run 
as Founder, Chairman and CEO or USA Networks. It was an emerging year 
for capital formation in the equity markets, with venture capital still 
rising to its peak two years later, and the millennium on the horizon. 
Much of the growth was predicated on the development of high growth 
technologies and biotechnology companies. Being charged with the 
oversight of the progress of women in these and other businesses, I set 
off to find out where the women were.
    I turned to the equity markets to see where billions in venture 
capital were being focused. The statistic was shocking, but perhaps not 
unexpected. In 1997, a mere 1.7 percent of the venture capital, in a 
booming market, was going to this dynamic treasure trove of women 
entrepreneurs. Fueled by disbelief, I investigated. Was it as simple as 
women being rejected by venture capitalists? Refusing to accept the 
quick and easy answers, I sought to find out why.
    In nearly 50 interviews across the country with venture 
capitalists, 95 percent of whom are male, the answer was clear: There 
simply was a total disconnect. Venture capitalists weren't refusing 
women; they just weren't looking for them. At the same time, women 
didn't know about venture capital or where to find it. But I refused to 
believe that no qualified women entrepreneurs could be found. It was 
clear that it was human capital that was missing from the equation: the 
networks that connect entrepreneurs to money were woefully deficient 
and needed to be built from scratch.
    That's why I created Springboard 2000. With private sector funding, 
Springboard made its debut at Oracle Corporation's Conference Center in 
Silicon Valley in January 2000. The premise was simple. The message to 
venture capitalists was clear. We will find women entrepreneurs with 
high growth technology driven companies, vet their business plans, 
train them to speak your language and you will fund them, after 
deciding whether they presented good investments, or not.
    The results were astonishing. Over 350 companies submitted their 
business plans in response to our extensive outreach to business 
schools, women's business organizations and alumnae associations. 
Twenty-six were selected to present. An audience of 250 investors 
participated at the event. Ultimately, 22 companies were funded with 
nearly $200 million in capital, two companies merged, and one company 
sold outright. Only a single presenter did not attract investors--an 
amazing success rate considering less than half the companies 
presenting at such forums normally stir any interest at all.
    This successful launch developed into a series of Springboard 
forums around the country, six cities and eight forums to date. Two 
hundred and fourteen companies have been presented since January of 
2000, in Boston, Northern Virginia, Chicago, New York and Dallas as 
well as Silicon Valley. The aggressive track record stands today, even 
in the wake of the Internet washout, the downturn of the economy, the 
devastation of 9/11, the current lack of liquidity, and the lack of 
confidence due to corporate malfeasance. Nearly half of the presenting 
companies received funding, generating over $750 million in all. More 
importantly, 85 percent of all companies presented at Springboard 
forums are in business today and an astonishing 96 percent of those 
funded are still in operation and growing. There is no record to match 
it.
    The annual percentage of venture capital invested in women-led 
firms more than tripled from 1997 to 2001 to nearly 6 percent of the 
total, according to industry tracker, Venture One. While this progress 
is significant, it's not nearly enough. It's not just the equity 
markets that have been slow to recognize the success of women business 
owners. The debt markets, too, have been dragging their feet, and are 
nowhere near catching up. In a study conducted by the Milken Institute 
in 2000, women-led firms accounted for nearly one third of the nation's 
GDP, yet they accessed only 12 per cent of the debt capital for growing 
their businesses. Why?
    I have observed that women are sometimes described as more cautious 
and conservative when it comes to their appetite for risk. This may 
prove however, to be a strength instead of a weakness, since growth 
rates for women led firms, far exceed national averages, and women have 
been starting businesses at twice the rate of men since the early 
1990s. They are clearly fueling the economy.
    What women entrepreneurs need to do is understand the financial 
markets better. They need to reach out to organizations like 
Springboard, business organizations, Alumnae associations, bankers and 
investors and build their own network of resources. It's only when the 
investors in the capital markets see women as fundable entrepreneurs 
that the sources of money will flow more freely.
    What policy makers need to do is to insure that the pipeline is 
nurtured and grows. Title IX, passed into law 30 years ago, is so often 
appropriately linked to the rise of women athletes and the building of 
leadership skills. Title IX also is the foundation for opening the 
doors for women in the fields of technology, science, law, medicine and 
engineering. We must guard against those forces that want to shut those 
doors to the daughters of America. On the contrary, we must fling the 
doors wide open and see to it that they take their earned positions in 
the ranks of leadership.
    What can the Federal Government do to advance the programs, for 
women in science and technology? How can our progress be assured?
    1. Stand firm on Title IX--Equal Access to Education.
    2. Support Small Business Administration's SBIC funds. These 
sources of early stage funding for entrepreneurial companies are 
critical to building new businesses, including technology companies run 
by women.
    3. Procurement: The Federal Government has established a target to 
procure 5 percent of its goods and services from women-owned businesses 
since 1992, yet today only 2.5 percent of it is. Why? Again, like 
Springboard, women aren't a part of the human network that connects 
these companies to contracts. Progress could be made in this area by 
creating a Springboard like process for the education, training and 
implementation necessary to drive these businesses.
    It's time to move from talk the talk to walk the walk. Springboard 
Enterprises, now a separate non-profit organization, has elevated 
thousands of women in technology onto the playing field. This is being 
done with the help of literally thousands of private sector supporters 
who fund the organization, coach the entrepreneurs, give them the 
platform to present and fund those who successfully meet the criteria. 
Action and results are the measure of success.

    Senator Wyden. Well said.
    Ms. Stueber, welcome, and you have survived, I understand, 
12 hours in the Chicago Airport in the name of being a strong 
advocate. I think it is reflective of what OMSI has done for a 
lot of years, both for Oregon and the country, so we welcome 
you and thank you for enduring yesterday a special marathon.

            STATEMENT OF NANCY STUEBER, PRESIDENT, 
             OREGON MUSEUM OF SCIENCE AND INDUSTRY

    Ms. Stueber. Thank you very much, Senator Wyden, Senator 
Allen, it is a pleasure to be able to be here today, and it was 
well worth it. It is actually hotter in Oregon today than in 
Washington, DC., so it is a pleasure to be here for that reason 
as well.
    My name is Nancy Stueber, and I am the President of the 
Oregon Museum of Science and Industry. It does go by the 
acronym OMSI in Oregon, and it is an interactive science 
technology center that is located in Portland, but has State-
wide outreach. I am biologist by training, but I realize that 
one of the ways to really affect change is through education, 
so I have spent my career working on ways to make science and 
technology accessible to people of all ages, and half of those 
people are female.
    We have heard a lot of statistics today. Many of us are 
familiar with them, things like the number of graduates in 
science, math, and engineering, or the number of women 
entrepreneurs in those fields, or the amount of funding. Almost 
any way you slice it, the statistics are discouraging, and 
something that we need to address. As a species, we are having 
unprecedented impact on the earth, and are really faced with 
some new challenges about how we live sustainably on the 
planet, but the good news is, we have more scientific knowledge 
and more technological tools available than we have ever had 
before.
    However, all of the industries and all of the fields of 
study that require math and science and technology are having a 
very difficult time finding skilled workers, and so if we are 
to really keep our country's competitive advantage, and if we 
are to meet the challenges of the world we live in, we have to 
find a way for all of the talent to be accessed and we have to 
encourage girls, as we have to encourage boys, to really take a 
part in those challenges.
    So to understand why girls are so badly under-represented 
at the college level, and as we heard from my colleagues today, 
I believe we need to look back much, much earlier. If you spend 
time in a kindergarten classroom, you find out that girls and 
boys are equally interested and equally talented at math and 
science and technology.
    There is a wonderful program funded by the National Science 
Foundation called Girls First, and they have done some studies 
that I think are really remarkable about the way those 
attitudes change from kindergarten. They went into a 
kindergarten classroom and they talked with students there, and 
they found that the girls were active. They wanted to 
participate. They wanted to take part in hands-on activities, 
making things like these, and they were very enthusiastic, and 
they were asked to draw pictures of themselves in an imagined 
future. They drew pictures of doctors and of marine biologists 
and archaeologists.
    Those same girls by the time they got to 4th grade showed a 
marked change. They were more reluctant to speak up in a group 
or express their own opinions. They did not see themselves as 
scientists any longer, and they had lost confidence and 
direction. As you heard the Dean say today, the research says 
that by 5th to 7th grade most girls have made the choice about 
whether they believe science and math are useful for them or 
not.
    So how do we change that? To be successful, we need to 
consider two factors, I believe, that influence girls' choices.
    One of them is experiences. We need to provide very rich 
science-learning experiences for girls. We need to provide the 
toys and the activities that give them problem-solving skills.
    One of the girls in the Girls First program said that she 
really enjoyed the LEGOs activities, and when she was asked if 
she had LEGOs at home, she said she had never really owned a 
set of LEGOs herself. Her parents had bought a set for her 
brother, and when he got tired of playing with them they gave 
them away. Those parents had never considered that their 
daughter might be interested in a construction set as much or 
perhaps even more than their son.
    One of the things that we do at OMSI at the Science Center 
is provide access to girls and boys to computers, to 
interactive science activities, to science kits, to LEGOs, but 
we found that it is important that we also add relevance for 
the girls.
    We recently had an engineering challenge that the boys were 
very interested in to build a radio tower that could withstand 
a simulated earthquake, but when we found that the girls were 
not interested, we changed the challenge and we made it to 
design a room that could withstand a simulated earthquake, and 
they wanted to participate. The activity had some relevance to 
them, or some application that they could relate to, and as 
they gain experience with problem-solving, they gain confidence 
and a willingness to experiment that translates to a head start 
in school.
    The expectations are equally important. We heard discussion 
this morning about mentors and role models, and we know that 
boys are more likely to be encouraged in science activities, or 
things that would promote an interest in science in girls. I 
had an example. My roommate in college, Connie Durst, excelled 
in biology. She decided she wanted to go into engineering, and 
she spoke with her advisor, who discouraged her from doing 
that. He said, ``You know, it is going to require a lot of 
advanced math,'' some of those brussels sprouts and broccoli 
courses, and he did not want her to be discouraged.
    Well, in Connie's case, that was exactly the challenge she 
needed to make her determined to go and show that he was wrong, 
and today she is an accomplished engineer. She is doing cutting 
edge research in hazardous waste cleanup. But many girls do not 
have the self-confidence to be able to overcome that 
discouragement by their mentors, and unfortunately, most of the 
girls who opt out of science and technology by 6th or 7th 
grade, they are much less likely to have anybody notice, their 
teachers, their peers, their counselors, or their mentors, or 
to encourage them to intervene and try to encourage them in 
those areas.
    Girls will live up to the expectations we set for them. We 
believe that having the mentors is extremely important, and the 
role models, is extremely important. There is a young chemist 
on my staff, Erica Ritter, who is writing a book called ``Geek 
Chic,'' and it is really for adolescent girls who are facing 
incredible peer pressure because they like science and they 
like technology.
    There are many, many examples of things that work, but we 
believe that there are not enough. We need to work at every 
level to have teachers really understand gender equity issues, 
to have girls themselves be aware of the often inadvertent 
biases against girls in science and, most importantly, I 
believe we must start early. If we are to see a change in the 
number of graduates and the number of women in science careers, 
we need to start in kindergarten and in those elementary years, 
so what I believe the Government can do is to continue to 
support initiatives at NASA and at National Science Foundation 
that are so important in supporting the work of science centers 
like mine, and community organizations around the country who 
are able to reach girls at those early ages. It is incredibly 
important to all of us. I appreciate that you are bringing this 
issue to the fore. Thank you.
    [The prepared statement of Ms. Stueber follows:]

            Prepared Statement of Nancy Stueber, President, 
                 Oregon Museum of Science and Industry

    Thank you, Mr. Chairman and members of the Subcommittee for the 
opportunity to testify about encouraging girls and women in science and 
technology. My name is Nancy Stueber and I am the President of the 
Oregon Museum of Science and Industry (OMSI), an interactive science 
and technology center in Portland, OR. I am a biologist by training, 
who realized that one way to truly affect change is through education, 
and so have spent my career working to make science and technology 
accessible and relevant to people of all ages. Half of those people are 
female.
     Recent statistics of the number of women in the workforce in 
science and engineering careers reveals a shocking fact. Women comprise 
only 22 percent of the science and engineering workforce,\1\ and for 
women of color, the picture is even more bleak. As a society we have 
unprecedented scientific knowledge and more technological tools 
available than ever before. As a species, we are also having an 
unprecedented impact on natural systems and are facing new challenges 
of how to live sustainably on the planet. At the same time, professions 
that rely on math, science and technology cannot find enough skilled 
workers. Science education and technological innovation are keys to 
both our country's economic competitiveness and to our ability to meet 
the challenges of the complex world we live in. We need to tap into all 
of the talent available, from girls as well as boys, if we are to 
continue to be a world leader in scientific innovation.
---------------------------------------------------------------------------
    \1\ Women, Minorities, and Persons with Disabilities in Science and 
Engineering: 1998, NSF 99-338. National Science Foundation, Arlington, 
VA, 1999.
---------------------------------------------------------------------------
    To understand why girls are so badly underrepresented in science 
and technology at the college level, we need to look back much earlier. 
If you spend time in a kindergarten classroom, you will find that girls 
and boys are equally interested or talented in science, math, or 
technology. The Girls FIRST \2\ project, funded by the National Science 
Foundation, provides a vivid example of how those attitudes change. 
Their observations in a kindergarten class showed that the kindergarten 
girls spoke out in class, got involved in hands-on projects, and drew 
pictures of themselves in an imagined future as doctors, 
archaeologists, and marine biologists. When the same girls were 
observed in fourth grade, they showed a marked change. They were more 
reluctant to speak up in a group and voice their opinions. They no 
longer saw themselves as future scientists. They had lost confidence 
and direction. Research indicates that between fifth and seventh grade, 
most girls have decided whether or not science and math are useful for 
them.
---------------------------------------------------------------------------
    \2\ Kekelis, L and E. Heber. 2001. Girls FIRST, A Guide to Starting 
Science Clubs for Girls. Oakland CA: Chabot Space & Science Center.
---------------------------------------------------------------------------
    How can we change that trend? To be successful, we must consider 
two factors that influence girls' choices: experience and expectation. 
We must provide girls access to rich science learning experiences. We 
must provide toys and activities that enhance problem-solving skills. 
Science centers, after school clubs, and enrichment classes all provide 
enhancement activities for girls. A girl in one of the Girls FIRST 
clubs said how much she enjoyed building with LEGOs. When asked if she 
had LEGOs at home, she answered that she had never owned a set of her 
own. Her parents bought LEGOs for her brother. Once he got tired of 
playing with them, the LEGO set was given away. These parents had never 
considered that their daughter might enjoy a construction set just as 
much, or perhaps even more, than their son. In the after-school clubs 
and classes at OMSI, we offer girls the same opportunity as boys to 
work with LEGOs, construction sets, science kits and computers. But we 
also make those activities relevant to the girl's lives. For example, 
we found many boys, but few girls, interested in a recent engineering 
challenge to build a radio tower that could withstand a simulated 
earthquake. When we switched the challenge to the design of an 
earthquake-proof room, the girls suddenly wanted to participate. The 
application was something they could relate to. As they gain experience 
with successful problem solving, they gain confidence and a willingness 
to experiment that translates to a head start in school.
    The expectations we set are equally important. Most girls have had 
less encouragement than boys to engage in activities that are likely to 
inspire their interest in science and technology. They are often not 
expected to do well, and many times are not advised to take advanced 
classes in physics or engineering. Connie Durst excelled in biology. 
But when she told her counselor that she wanted to be an engineer, she 
was advised against it. The counselor told her that engineering would 
require advanced mathematics and he didn't want her to be disappointed 
when she couldn't do it. That was the challenge that made Connie 
determined to prove him wrong and today she is an accomplished engineer 
doing cutting-edge research in hazardous waste clean-up. Many girls do 
not have the self-confidence to overcome discouragement from mentors. 
And unfortunately, when most girls opt out of science or technology, it 
is unlikely that anyone--parents, teachers, counselors, or peers--will 
notice or intervene.
    Girls will live up to the expectations we set for them. They need 
teachers trained in gender equity issues and female mentors and role 
models. OMSI hosts a club for Hispanic girls called Latinas en Ciencia, 
or Girls in Science, funded by the National Science Foundation. We 
specifically targeted Latinas because the Latino population has the 
highest school drop-out rate in Oregon, and girls comprise the highest 
percentage of those drop-outs. At the start of the session, we asked 
the girls to draw a picture of a scientist. I have an example of a 
drawing by Felicia, depicting a white male in a lab coat. At the end of 
the program, after weeks of science experiments led by women 
scientists, the girls were given the same exercise. This time Felicia's 
scientist was a woman with a big smile. When asked the most important 
thing that she learned she responded ``that being a scientist is really 
fun.'' When asked how we could make the experience better she said 
``that we could have science every day.'' The highly successful, NSF-
funded AWSEM program (AWSEM stands for Advancing Women in Science 
Engineering and Mathematics) has demonstrated success in pairing girls 
with women scientists as mentors. Erica Ritter, a young chemist on my 
staff, is writing a book called ``Geek Chic'' for adolescent girls who 
are facing negative peer pressure because of their interest in science 
and technology.
    There are many other examples of successful programs. But there are 
not enough. We must work at every level to educate parents, teachers, 
and the girls themselves about the frequently unintentional practices 
that bias girls against science. And we must start early. We will see a 
change in the number of women in technology-based careers only if we 
invest in the experiences and expectations for girls in their early 
years.
    I applaud the subcommittee for addressing these issues and for your 
support of education initiatives at NASA and the National Science 
Foundation that support the work of community organizations best able 
to reach girls in the early years. Women represent a huge resource that 
we cannot afford to leave untapped. We are committed to working with 
you to meet the challenge of increasing the number of women entering 
scientific and mathematical professions.
    Thank you, Mr. Chairman, for this opportunity to testify. I will be 
pleased to respond to any questions that you or members of the 
Subcommittee might have.

    Senator Wyden. Well said.
    Ms. Boitel, welcome, and Senator Allen has let all of us on 
the Subcommittee know about the good work that you all are 
doing in Alexandria, and you may please proceed. We welcome 
you.

             STATEMENT OF ANA MARIA BOITEL, CHAIR, 
                      WOMEN IN TECHNOLOGY

    Ms. Boitel. Thank you. I am Ana Maria Boitel. I am the 
Chairman of Women in Technology. Women in Technology was 
started in 1994 by an engineer, a woman, because she was very 
involved in a number of the local Virginia organizations in 
technology, and realized that there were an awful lot of men, 
but very few women. Women were definitely under-represented, so 
she sent out a notice that she was going to have a gathering in 
her conference room thinking that perhaps 40 would show up, and 
over 100 turned out, and that was the beginning of Women in 
Technology.
    Over the years, we have grown to meet all of the needs of 
our ever-expanding membership, which is now way over 700. I am 
going to concentrate today on the importance of one group in 
particular, which is Girls in Technology, because my 
understanding is that we are here looking at what is going to 
happen within the next 10 years.
    However, I want to also mention that even now, as chair of 
WIT, I will pick up the phone and call women I have never met, 
but about whom I have read in the newspaper, who are CEOs, 
CFOs, COOs of companies, and invite them to my home to dinner, 
telling them that I am having a gathering of 10 to 12 executive 
women so that we can just meet and share information, and it is 
astounding to me that without exception these women are all 
interested, and if there is any way they can make it, they do.
    They do not even know me, but it is an opportunity to share 
with each other, because the fact of the matter is that we are 
equal, but we are different, and we think differently, we 
handle things differently, just as the young girls related to 
math, because they were able to do something like the toy 
puppet.
    So to tell you a little bit about Girls in Technology, it 
was started a few years ago when it was brought to our 
attention that there is a tremendous need for young girls to 
receive guidance and encouragement. Just as several of my 
cospeakers here have mentioned, in about the 4th to 5th grade 
there is a marked change in girls, and I am not really sure 
whether anyone has been able to pinpoint exactly why, but at 
that point, all of a sudden it is not cool to be a girl and 
know more science or math than boys do, certainly.
    So all of a sudden that becomes less interesting; there is 
a study that was done by AAUW in the year 2000 called ``Tech 
Savvy, Educating Girls in the New Computer Age,'' which laid 
out all of the statistics about these girls, and particularly 
choosing not to go into computer-related fields.
    Only 17 percent of the children taking advanced placement 
computer science courses, exam A, are girls, which is the 
slightly more--the easier test of the two, and only 11 percent 
of those taking the AB computer test are girls.
    Among the programs that get WIT support are Horizon 2000, 
which is a program that is led out of George Mason University, 
Senator Allen, by Dr. Cheryl Bartholomew. It was started around 
1999 to offer guidance, role models, and mentors to girls 
starting in the 5th grade.
    Unfortunately, due to a great deal of pressure from the 
trustees at George Mason in the year 2000 Dr. Bartholomew was 
forced to make this co-ed, and I do say unfortunate, even 
though I am all too aware of the importance of having co-ed 
education, because girls do become more shy in these 
environments when boys are in the room and are part of the 
learning group, is what has been found.
    Another program that we support very strongly is a program 
that was started last year by a woman who was a general counsel 
of Best Software, Empower Girls. She has started doing pilot 
programs where she will go into the schools and take girls 
after school and teach them how to work a computer by designing 
programs that are of interest to girls, treasure hunts, how to 
find things that are of interest to them within the web.
    What has been reported back by the parents, who are 
ecstatic, because now their girls are actually going onto the 
computer not just because they need to do homework, but because 
now they are fun. Just like my 4-year-old nephew cannot stay 
away from the computer, well, now these girls are also enjoying 
the computers.
    So it is just so important. If we are going to have women 
in the field of technology 10 years from now we have got to 
find a way to make sure that these girls have the role models 
so that they know that there is a lot more to math and science 
than these doctors in these white coats, that they can enjoy 
this, that it is interesting, that it is fun, and that it is OK 
to be a girl and be a scientist.
    If we can attract more young women to the field of 
technology, others will follow, because they will be the role 
models for those who come after them. It needs to become 
socially acceptable for a young woman to pursue a career in 
physics or engineering or chemistry. The lack or scarcity of 
senior women role models is a large part of the lack of girls 
choosing to study these subjects. Having women in senior 
leadership roles in technology companies is critical to 
demonstrating to young women that such a career goal is 
feasible and desirable.
    I do not know how many of you have seen the latest issue of 
Fast Company Magazine, but the cover is something like ``Memo 
to Men in Corporate America, If You Think You Are in Charge, 
Think Again.'' I highly recommend it. It is very interesting.
    We see a very low percentage of women in the highest 
positions in corporate America. We actually see a lot more 
women in high level positions in Government than we do in the 
corporate world. Mentoring shows young women the possibilities, 
and by highlighting success stories we inspire them to pursue a 
career in the technology field.
    In addition to these barriers, there is also a lack of 
knowledge of what scientists do, some of my fellow panelists 
have mentioned the lack of successful examples of women 
engineers and scientists. For some reason, I am told girls do 
not seem to relate to astronauts. There is a lack of women 
professors in science. We need more, and we note that in 
California, after passage of the anti-affirmation legislation, 
only one woman professor was hired in the sciences or 
engineering within the UC system, whereas in previous years, 
there had been 38.
    In conclusion, there is a tremendous need for programs in 
the schools and through the nonprofit organizations that 
cultivate young girls to study, indeed enjoy math and science, 
to have fun with computers, to be interested in learning. There 
is a need for funding for these programs. When a program such 
as Empower Girls costs only $5,000 per program, not per girl, 
per program, we are talking about relatively little money. So 
in closing, I hope that we will be able to find some of that 
funding so that these programs can go forth.
    And I also want to say that we at Women in Technology are 
at your disposal. On our board of directors we have a number of 
women who are: Dr. Helena Wiznewski, who started Aurora 
Biometrics; Paula Jagemann, who is founder and CEO of ECI 
Squared; Angela Drummond, who is founder and Chairman of 
SiloSmashers, all technology companies in this area.
    Thank you very much.
    [The prepared statement of Ms. Boitel follows:]

                Prepared Statement of Ana Maria Boitel, 
                       Chair, Women in Technology

    Senator Wyden, Senator Allen, members of the Subcommittee on 
Science, Technology and Space, and congressional staff. I am pleased 
for the opportunity to present the thought s and findings of Women in 
Technology (``WIT'') with respect to the barriers confronting women in 
the field of technology, and girls who might have an interest if they 
had more opportunities.

Background

    WIT was founded in 1994 by Valerie Perlowitz, an engineer who Is 
founder and president of Reliable Integration Systems, a company based 
in the Tyson's Corner area of Northern Virginia. Ms. Perlowitz felt the 
lack of attendance and involvement on the part of women at many of the 
other technology organizations in the area. She put out he word that 
she would be hosting a reception in her office one evening, expecting 
about 40 women would attend. Instead, there were 100 women in 
attendance and WIT was born.
    In the past eight years the organization has grown to over 700 
members from the Metropolitan Washington area. WIT has expanded its 
programs and services to meet the needs of our variety of members. We 
now have Special Interest Groups to give Women Business Owners, Senior 
Executive Women, strict IT professionals, and Government Women in 
Technology a venue to meet and discuss issues with their counterparts.
    We also started a Mentor/Protege program several years ago so as to 
give the young women entering the field, as well as women who are re-
entering the workforce after raising children, or who simply want to 
change careers, access to role models, mentors, and guidance.
    Girls in Technology (``GIT''), another WIT sub-group, was started a 
few years ago when it was brought to our attention that there is a 
tremendous need for young girls to receive guidance and encouragement 
to stay interested in math and science. GIT supports programs that help 
and encourage girls to have fun with these subjects.
    ``Tech Savvy--Educating Girls in the New Computer Age,'' a study 
done by AAUW in 2000, which laid out all of the statistics about girls 
choosing not to go into computer related fields of study as early as 
middle school. For instance, nationally, only 17 percent of the 
children taking the AP Computer Science A exam are girls, and only 11 
percent of those taking the AP Computer Science AB exam are girls. In 
Fairfax County public high schools, boys currently constitute 83 
percent of AP computer science classes, 95 percent of network design 
courses, 75 percent of basic computer science courses, and 87 percent 
of network software operations classes.
    Among the programs GIT supports are Empower Girls, Inc. and 
Horizons 2000.
    Empower Girls, founded in December of 2001 by Eileen Ellsworh, 
former General Counsel of Best Software, after conducting two pilot 
programs in the spring of 2002. The first was an after school computer 
club for girls at Fairhill Elementary in Fairfax County, VA that ran 
from February to April. Thirty-three 4th and 5th grade girls signed up 
for the club in less than 24 hours. The club met once a week for 10 
weeks from 3:30 to 5:00. The second pilot was an evening program for 
girls at the Reston Teen Center in Reston, VA. A ``drop in'' group of 
approximately 12 girls ages 12 to 16 met once a week for 8 weeks on 
Thursday evenings. Due to the success of these pilot programs, there 
are currently 12 elementary schools, 1 high school, and 2 Fairfax 
County teen centers that are interested in conducting Empower Girls 
programs this fall. Based upon interviews with administration in the 12 
elementary schools, the level of interest in girls' computer clubs is 
very high. It is therefore anticipated that demand for these clubs will 
grow throughout in 2003. The feedback from parents and teachers of the 
girls who have gone through the pilot programs has been tremendously 
positive. The programs cost $5,000 each to run.
    Horizon 2000, run out of George Mason University by Dr. Cheryl 
Bartholomew, was started in 1999 to offer guidance and mentors to girls 
in the 5th and 6th grades to encourage their continuing interest in 
science, math and science. Unfortunately, under pressure from he 
Trustees of George Mason University, Dr. Bartholomew was forced to open 
the program to boys in 2000.

Barriers

    In preparing this testimony over the last 24 hours, I spoke with 
several of our members to get their thoughts and experiences. The 
overwhelming consensus is that in most instances women are still 
culturally discouraged to excel in math and science. If all your 
friends are majoring in psychology, physics or engineering is a harder 
path alone. Therefore, if we can attract more young women to the 
technology fields, others will follow. It needs to become socially 
acceptable for a young woman to pursue a career in physics or 
engineering or chemistry.
    The lack or scarcity of senior women role models is a large part of 
this. Having women in senior leadership roles in technology companies 
is critical to demonstrating to young women that such a career goal is 
feasible and desirable. Yet we still see a very low percentage of women 
in the highest positions of corporate America, unless they have started 
their own companies. Mentoring shows young women the possibilities, and 
by highlighting success stories we inspire young women to pursue a 
career path in a technology field.
    In addition, there is:
    <bullet> A lack of knowledge of what scientists and engineers do
    <bullet> A lack of successful examples of women engineers and 
scientists (other than astronauts and Marie Curie, and for some reason, 
many girls do not seem to connect to astronauts as role models)
    <bullet> A lack of women professors in science and engineering 
departments of universities (note that in California, after passage of 
anti-affirmation legislation, only one woman professor was hired in the 
sciences or engineering within the UC system; in year previous to 
legislation 38 were hired).

Conclusions

    There is a tremendous need for programs in the schools and through 
non-profit organizations that cultivate young girls to study, indeed 
enjoy, math and science; to have fun with computers; to be interested 
in learning.
    There is a need for funding for these programs. When a program such 
as Empower Girls costs $5,000 per, we are talking about relatively 
small amounts in exchange for a highly motivated work force.
    There is much more that WIT can share with this committee, given 
more time for preparation. We offer our resources to the committee for 
any further interviews or information it may wish to pursue.

    Senator Wyden. Thank you all. It has been excellent. I know 
both of us, Senator Allen and I have really learned a lot. I 
think what I want to do is just have a conversation now and see 
if we can think a little bit out of the box. You started with 
this point, Dr. Johnson, and I think that Ms. Koplovitz picked 
up on it when she said ``we want you to walk the walk and 
really produce results.''
    Start by giving me your sense of how you hold major 
institutions accountable on this issue. For example, Title IX 
is a real hammer, and it has worked. Title IX just says, 
``Look, we are going to go cold turkey on you, you are going to 
lose Federal funds.'' It has been a very strong hammer, and it 
has worked.
    Now, there are a lot of differences between the challenges 
we are facing here and the challenges that we faced with 
respect to women's sports, but I think it is worth asking how 
do you go about holding these major institutions accountable? 
Let us just get a sense from each of you. I am just going to 
ask a couple of questions in this first round and then go to 
Senator Allen, but this seems to me to be right at the center 
of actually bringing about change.
    Dr. Johnson. Well, I just happened to have the exact 
wording of Title IX with me, which I think it would be 
interesting to review, because there must be a connection, and 
it might be interesting to look and see is there a systemic 
bias at the graduate levels of financial aid in the country 
that is not attracting as many women into the research side of 
the house to get the Ph.Ds.
    Title IX says, ``no person in the United States shall, on 
the basis of sex, be excluded from participation in or be 
denied the benefits of or be subjected to discrimination under 
any program or activity receiving Federal financial 
assistance.'' It never says that it is just athletics, but you 
are right, it has been used very advantageously in that area, 
so I think one of the first things would be to explore 
nationally if there is or has been a bias.
    Senator Wyden. But you think it is worth looking at in 
terms of something that really brought the hammer down on 
institutions like schools that get Federal funds if they are 
not giving women a fair shake here in the hard sciences? You 
think it is worth looking at putting the hammer down on them?
    Dr. Johnson. I think it would be interesting to explore the 
implications. Just in terms of creating more role models at the 
faculty level there are ways that we have been working with our 
colleagues at the National Science Foundation, programs like 
ADVANCE and others that are encouraging institutions 
financially to provide those opportunities for women, and I 
think they are working.
    Senator Wyden. Ms. Koplovitz, your thoughts on Title IX and 
accountability.
    Ms. Koplovitz. Yes, I really think that Title IX has been 
so instrumental in improving the prospects for women across all 
these fields, but if you look at the statistics in terms of 
higher education in this country, the number of women who get 
bachelor's degrees--and you could add law into that--but in 
medical science and the medicine field, the field of medicine, 
et cetera, a pretty high percentage. But once you get out of 
undergraduate, once you get out of the bachelor degree 
business, the pyramid starts to narrow very dramatically for 
women. As you go up the pyramid, if you are talking about 
inside the institutions, and leadership inside the 
institutions, the higher you go, whether that is a professor, 
dean of the schools, and then administration of those schools, 
very few women proceed up that pyramid. I think we have to look 
at these types of appointments at colleges and universities.
    I would laud Shirley Tilghman from Princeton University, 
who has appointed a woman provost, a woman as the head of the 
engineering department, and four other departments in an 11-
department university. She is making changes from the top, and 
I think that is what we have to look at in Title IX, 
administration, not just students, because it is the 
administration's policies that affect the students, the 
research grants that they get, the full tenure that they get or 
do not get. All of these things are affected inside that 
policy, so I think we ought to be looking at not only the 
student body but the administration of colleges and 
universities, and how women and minorities can progress under 
their leadership. I think that will make a big difference.
    Senator Wyden. I have got you down as one who thinks the 
Title IX model has some applicability as well.
    OK, Ms. Stueber.
    Ms. Stueber. The example that came to mind was one of the 
requirements of some National Science Foundation research 
grants to universities that require that a portion of the funds 
be used for public education, and as an informal science center 
we have been able to partner with those researchers to do that 
piece. I think it would be interesting to think about adding a 
gender equity overlay to that, so that in addition to just 
public education it would be possible that some of the moneys 
would go toward really looking at ways to encourage girls.
    Senator Wyden. Ms. Boitel.
    Ms. Boitel. I think that no matter what the law says, if it 
is in terms of no one is to be kept out, the fact of the matter 
is that we all work with and hire the people we know, and the 
people we like, and if most of the people who are making these 
decisions are men, and they do not have acquaintances or 
friendships with women who are their equals, they are going to 
hire more men and they are going to work with more men, and I 
do not even think that it is something that they do purposely. 
It is just the way it is. It is easy. They probably do not even 
think about it, so perhaps we need to find a way to make them 
think about it.
    Senator Wyden. I think your point is unquestionably 
correct. I think the question in the Title IX model is to get 
people in the position to have those skills so that when you 
have the conversation you are talking about, they ought to be 
hired for X company, because the person has the skills and has 
the training. I think the concern is that so many women are not 
really getting to that point because of the systemic 
discrimination.
    So that when the conversations you are talking about, which 
are inevitably occurring, take place, women are not even in the 
ball game because there has been so much discrimination in the 
period where they are coming up. Tell me just so I will have it 
for the record, because the other three have said something 
that I find very surprising: that they would look at the 
applicability of Title IX as it relates to the problems women 
face getting the opportunities in terms of education in the 
hard sciences. Would you favor looking at Title IX as well?
    Ms. Boitel. Yes.
    Senator Wyden. Very good. I will have some other questions 
in a moment.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman, and I thank each of 
you for your insight and perspective from a variety of points 
of view, from museums and as a leader at Duke University, and 
in business, and also business as well as networking.
    I would say for the museum, I went to a museum in Oregon 
recently. It was a historical museum, and got a Lewis & Clark 
map there, and for $6 and no sales tax, so I figured that was a 
real good deal, buying it in Oregon, and also my son was 
interested in the map, and I bought a whole bunch of bulbs, 
because Portland is so beautiful with all the flowers, and 
planted them with my 4-year-old daughter, so we are teaching 
her botany as the bulbs came up. Most of them have grown pretty 
well. I think I planted them the right side up in most cases.
    But in listening to the commentary here, Ms. Koplovitz, as 
far as sports and team sports, I find that I do not think that 
is a gender-unique matter, but it is very interesting. Having 
grown up with a football father as a coach, and playing rugby 
and football myself, sports, individual--but particularly, team 
sports--do teach you to work with others to push yourself, to 
play hurt sometimes, and the self-discipline that is involved. 
Sports is about the only place left where there is a 
meritocracy. You need to produce. There is accountability. 
There is a score.
    I know the Dean was a tough player. You have got to be 
tough to play women's lacrosse. There is less padding than they 
have with the males.
    Dr. Johnson. There is no padding.
    Senator Allen. It is tough. The same with field hockey. 
Those are tough sports. You have got to be gritty at any rate.
    I would say to you, Ms. Koplovitz, that you would be happy 
earlier this day, this morning--I am on the Small Business 
Committee and Entrepreneurship, and we passed several good 
bills that have to do with SBIC and bills for procurement 
reform for women, minorities, and small businesses, and so if 
those bills get through the Senate and through the House, those 
will be good measures. I think it will help a lot of not just 
women-owned businesses, but minorities and small businesses.
    When you mentioned some of the statistics, Ms. Boitel, in 
talking about how few women are professors and teachers, well, 
it is not surprising. If there are fewer women taking courses 
in science and mathematics, then they are not going to have the 
confidence to impart that knowledge to students. Then on top of 
it all, I suspect in most cases in education, if somebody--if a 
woman has graduated with an engineering or a science degree, 
those in the private sector are going to try to hire them and 
pay more than they would get in the education field.
    Now, going through all of the comments here, there was an 
allusion, I think by you, Dr. Johnson, about--and several of 
you mentioned how more women were in the medical fields, and I 
mentioned it even in the statistics at VCU, where they have a 
medical school and an engineering school, chemistry, science, 
and all the rest, and it is interesting, why more are 
interested in the medical sciences than, say, just the pure 
technical area.
    And, in fact, the National Science Foundation pointed out, 
and I think pointed out a disparity, and maybe there is 
something that the psychology departments can teach us, but I 
think the reason people care more about medicine or life 
sciences is, they see something logical or relevant to it, as 
opposed to just the abstract of mathematics. Doing calculus I 
suppose is great fun for some people, but nevertheless, unless 
you see a logic to it--geometry there is a logic. Geometry, and 
trigonometry to some extent as well, is a logic and is a way of 
looking at things.
    The words you use in geometry are used for logic, and your 
normal talk. Algebra, calculus, and so forth: anybody who talks 
using those phrases I usually walked away from fairly quickly, 
because it is simply not very interesting.
    Now, when you look at women in the graduates in psychology, 
70 percent of the graduate students in psychology are women. 
Only 20 percent of the graduate students in physical and 
computer sciences are women. Now, are there tactics, are there 
role models--and I do not understand why Sally Ride, or maybe 
even Amelia Earhardt may not be interesting role models, but is 
there something that the psychology departments are doing to 
recruit prospective women that other sciences can use? Is there 
something we can learn, because there is an example of sciences 
where women are interested.
    Let me go with you first, Dean.
    Dr. Johnson. It is interesting you should mention Sally 
Ride, because she was my role model at Stanford. She was 
graduating with a Ph.D. and going off to the space program, and 
I was just a junior, and she was one of the few women in 
science and engineering there, and so I think we are interested 
in astronauts.
    My graduate student mate who I shared a lab with is Eleanor 
Choa, who just currently went up in the Atlantis Space Shuttle, 
so I think they are coming into the space, but to answer your 
question, I think one of the things that I read in some of the 
preparation I did before testifying here today showed that 
women and girls are more interested in technology and science 
fields that they see the relevance to serving society.
    So what can we do? I think medicine, I think that is why 
VCU and other places have seen a huge rise in the applicants to 
medical school. I think we could--for example, National Science 
Foundation has had an engineering research center program for 
the last, maybe almost 20 years. This came out of an address to 
the State of the Union from then-President Ronald Reagan, who 
said, we are losing our competitiveness in manufacturing, we 
need to integrate knowledge across the disciplines, and the 
National Science Board was tasked with figuring out what we 
should do about that Presidential directive, passed it to the 
National Science Foundation, who then created these engineering 
research centers.
    Maybe we need a whole new set of engineering research 
centers that are technology and service to society, things 
where again it is being part of a greater purpose, national 
centers for cyber security, national centers for networking, 
national centers for--you know, I have to say one thing. There 
is a lot of talk about security now, and homeland security, but 
I tell you, even before the tragedy, and it was tragic what 
happened on September 11, 500,000 women a year are assaulted.
    Now, if that is not a homeland security issue for the 
citizens of this country, I do not know what is. Why don't we 
utilize technology to solve those problems? A very simple thing 
we can do, create a straw that is coated with a polymer that 
fluoresces when a drink has been compromised, that right now 
contributes significantly to reducing date rape that we see in 
our Nation's universities. I think women would get energized if 
a biochemist, molecular physicist that would understand and 
appreciate surface science and be able to create those kinds of 
technologies.
    There are enormous things we could do if we were to create 
those centers that now would focus on the issues that are 
important to the people of this country, environmental 
engineering, water. The next wars, and current wars, are being 
fought over water. With half the country in droughts right now, 
it is a huge issue, so--not being dependent on nonrenewable 
energy sources. We could create 10 centers in the country, and 
that would energize the Nation. I bet you would get everybody 
to become an engineer, and that would be great.
    One more thing--and men are going to laugh--I think men 
would love science and engineering more if more women were in 
there, too.
    [Laughter.]
    Senator Allen. Ms. Boitel is making an argument for single 
gender education.
    Senator Wyden. Just on that point with respect to the 
technology and homeland security, we are going to have a 
homeland security bill on the floor of the U.S. Senate next 
week. Senator Allen and I, on a number of pieces of legislation 
in the past, have brought bipartisan amendments to promote 
technology. Tell me again, because I think maybe I just had 
trouble hearing, what was it that you were recommending with 
respect to one of the technologies that you thought would be of 
special benefit to women in the law enforcement and homeland 
security area?
    Dr. Johnson. Well, I think we could look at polymers that 
would be--they are sensors, sensors that detect things. When 
you talk about bioterrorism, you want to detect anthrax, you 
want to detect anything else, I do not see why we cannot detect 
chemicals in drinks that are compromising the drinks, drugs. I 
believe, and in fact, I think it would be a great company 
stock. Maybe Kay and I can talk about this afterwards.
    Ms. Koplovitz. I have just seen such a company. I mean, I 
have seen a business plan for such a company.
    Dr. Johnson. I talked to 1,000, 7th and 8th graders in 
Raleigh-Durham 3 months ago, and I asked the question, I made a 
mistake of opening up to Q and A, which was great, and I said, 
``How many of you today''--we have chips that we can put in 
dogs, you lose your pet, you get it back--``How many of you 
would wear a chip so if you got lost you could be returned to 
your parents?'' Half of them raised their hand and said they 
would wear a chip.
    I said, ``how many of you would not wear a chip?'' The 
other half raised their hands. That is the difference between 
7th and 8th graders. The 8th graders do not want their parents 
to know where they are.
    However, there is that technology, and that is where it 
becomes very interesting if these centers of excellence or 
bills could really bring in public policy we could think 
through the issues of personal civil liberties and personal 
security.
    Ms. Koplovitz. May I add a comment to that? You are talking 
about homeland security, and the polymers is one suggestion, 
the chips are another element of identification. I do not see 
why we cannot use technology when you talk about assaulting a 
woman in this country, and that is different than the security 
you are talking about, perhaps, with regard to 9/11. But I 
think that there is no reason why you cannot use technology for 
women who are being accosted for an emergency alert system just 
like we have a 911 system in this country. We have a 911 system 
that works in cities throughout the country. Why can't we 
protect the women of this country from assault with the same 
kind of system, and we could through technology.
    So there are lots of things that we could be doing that 
would benefit people in this society, and I think that the 
comments about connecting the benefit of science and technology 
with the benefits of society are so important to women, and you 
can see that in the things that women choose to invest their 
money in when they have money to invest around the world, not 
just the United States.
    They invest back in their communities, in the education, 
they invest in the welfare of their family and their citizens, 
and that is what we need to look at. Those are the kinds of 
things in science and technology we need to encourage, I think, 
and you will see many more women going into these fields.
    Senator Wyden. Let me thank my colleague. Let me get into 
one other area, and then recognize Senator Allen. It seems to 
me that all of society's major institutions and organizations 
are going to have to be willing to do their part if you are 
really going to tackle that. I mean, it seems to me, for 
example, business organizations, schools, and Government 
agencies will have to make an effort. The media, too. I have 
never seen any public service announcements in this area. Maybe 
I am missing something. Have there been public service 
announcements promoting opportunities for women in the hard 
sciences?
    Ms. Koplovitz. Senator Wyden, I have previously been the 
chair of the Advertising Council, which is the primary council 
that puts forth the public service announcements, and there are 
certain focuses, and they do cooperate with certain Government 
programs. This has never been one, to my knowledge, that has 
been brought before the Advertising Council for consideration, 
and I think one worthy of further investigation.
    Senator Wyden. Well, let us do this. I am going to talk 
with Senator Allen about how we approach this, but to me, we 
ought to be going to these major institutions. The Advertising 
Council is one. I have never seen Katie Couric sit down at 7 in 
the morning with a group of young women who are excited about 
the hard sciences.
    It would just seem to me to be a natural to have those 
kinds of news shows and advertising campaigns, and we will 
follow that up with you, and we thank you for it, because I 
think the media has missed this issue. I think that they have 
really not focused in on it, and we are going to try and change 
that, so we will not flunk them today. We will just, for 
purposes of their grade today we will call them incomplete with 
respect to the media.
    Now let us go through some other institutions. How would 
you rate the Government agencies? Any one of you four can take 
it. I think that again we have heard lots of oratory in the 
past, but I have a question how much follow-through there has 
been. I am interested in getting your opinion; how would you 
all rate the Government agencies' performance with respect to 
actually delivering results in this area? Do any of you want to 
tackle that?
    Ms. Boitel. I will tackle it from one area, which may be 
not where you are wanting to start.
    Senator Wyden. This is in terms of getting women into the 
hard sciences. This is not a procurement issue or a business 
issue, but getting women into the hard sciences. NASA has 
talked about it. Other agencies have talked about it. I want to 
hear what you think in terms of the performance of Government 
agencies in this area.
    Ms. Koplovitz. I do not think NASA could get very good 
grades in this area, because the programs--I mean, I do have 
some familiarity with a few of the programs that have been run 
through NASA, and I know that it has been extremely difficult 
for women to rise in the ranks of the space programs, and the 
technology and science programs at NASA, so I do not think you 
could rate NASA as an agency that is making a lot of progress 
in this area.
    I think, interestingly enough, transportation has been one 
that has made some progress for women, because there are women 
in flat screen displays. This is like monitors and screen 
displays for trains, buses, airplanes, communications systems 
for travelers. I think there has been some real progress there, 
and I think women in those areas, and telecommunications is 
another area that has been a little bit more progressive for 
women in the technology sector. I cannot speak as much to the 
sciences you come from.
    Dr. Johnson. I think the National Science Foundation has 
been superb. Again, going back to engineering research centers, 
which I am familiar with, having directed--I was the first 
woman to direct one of the national centers of excellence out 
of Colorado, and that was a wonderful experience.
    The National Science Foundation required accountability. 
They wanted participation of not just women and minorities and 
boys and girls, they wanted undergraduates involved in 
research. They were really, truly an inclusive partnership, and 
I think they are mainly responsible for the doubling of women 
graduates in engineering over the last 20 years, so I think 
they have been terrific, and I think if given more they would 
do even more.
    Senator Wyden. Let us turn now to the schools, and 
particularly the elementary schools. When we prepared for this, 
and in our past efforts to explore the issue, we found again 
and again the research showing young girls lose interest in 
math and science somewhere around the junior high school years. 
By 8th grade in particular, twice as many boys as girls show an 
interest in science and engineering and math, so something is 
happening in that kind of time vicinity.
    What is your sense of what the schools, particularly the 
elementary and junior high schools, are doing in this area? I 
ask because we have the beginning of the school year here in 
another month or month-and-a-half, and we could approach them 
with some specific initiatives for this school year as well, 
based upon the answers you give us.
    Ms. Stueber. Senator Wyden, I would like to address what I 
have seen, and where I believe there is an opportunity with the 
Department of Education, because a great deal of the result 
will come from the way the teachers teach, and as we train 
teachers, not just in teaching methodologies, but really in 
some of the gender issues, and help them understand where these 
inadvertent biases are built in, into the way we teach the 
kinds of activities that are taught, the role models that are 
used. I think that teachers are going to be the most direct 
influence, and we need to have training programs that really 
bring that out and set goals and standards for teachers and for 
student achievements that look at the gender question.
    Senator Wyden. I am going to recognize Senator Allen.
    Before I do, especially given Dr. Johnson's comments about 
the good work of the National Science Foundation, I want to 
recognize that this is the last hearing for Charisse Carnay-
Nunes. She has done yeoman work for the Subcommittee as a 
fellow from the National Science Foundation, and particularly 
focused on this hearing, and so Charisse to some extent is sort 
of a poster child for the proposition that you have indicated, 
Dr. Johnson, that they do very good work at NSF. Charisse, we 
thank you for the excellent work that you have done for us.
    We will let Senator Allen wrap up.
    Senator Allen. Congratulations, Charisse. Someday you will 
be chairing one of these hearings, unless you want to do 
something more useful.
    [Laughter.]
    Senator Allen. Such as what these fine women are doing in 
their various fields, so I thank you all, and your perspectives 
in a variety of areas have been helpful in trying to see how we 
can address this.
    Let me try another angle, trying to determine--obviously 
all women do not have the same role models. We have already 
figured this one out. Some are motivated by an astronaut, some 
are not. That is the same regardless of gender. Some boys may 
like a football player, or they may like a musician, so it is 
hard to say, and I would like to address this to Ms. Boitel and 
Ms. Koplovitz.
    As far as business, and that is usually something that is 
quantifiable, you are involved in business. Women in business 
have been successful. What attracts investors to women-owned 
businesses, or why do they see benefits in investing in firms 
run by women? Maybe there is something we can glean from those 
sort of investments. I mean, the success rates, when you went 
through the success rates of that group, I said to the 
Chairman, that is better than any other batch of 25 you would 
want to pick for the last several years, especially in 
technology. So from your experiences, what makes a woman-run 
business attractive to investors?
    Ms. Koplovitz. Well, investors invest to make money, and 
they are going to look for leadership qualities, management 
team business savvy, and ability to deliver their targets, and 
what we have found in the investors that we have brought into 
the marketplace behind women is that they are getting their 
targets met. The benchmarks the women say they are going to 
meet, they meet and exceed them.
    Senator Boxer mentioned Meg Whitman in her testimony. Meg 
has beat her targets in every quarter. There is probably no 
other CEO--well, there are other CEOs that have met their bench 
targets during these last 2\1/2\ years, but in the years of a 
very difficult business climate we are in, the downturn of the 
technology markets, 9/11, corporate malfeasance, you could go 
on and on, there are a lot of things not to like about business 
these days, but there are people who are delivering on their 
targets. Women have a track record of delivering on their 
business targets, and that is why investors are investing, or 
why banks are lending to them. Ninety-five percent of the bank 
loans taken out by women in business are repaid. That is not 
true of the national average.
    Senator Allen. What is the national average, do you know?
    Ms. Koplovitz. It is in the 60s, 67 percent, so women may 
not quite shoot as high. This is very individual, and I am 
loath to make stereotypical examples, but the truth is in the 
statistics women are more dependable, and more reliable for 
delivering their results, and there are many management studies 
that show that women have better characteristics for 
management, and have proven that by ratings from their peers, 
from their superiors, and from people who work for them, and it 
is because women take a broader view of business.
    They oftentimes consider more alternatives. They are more 
inclusionary in their process, and so people who work for them 
feel that they are contributing to the process of success. 
These are all characteristics that are needed in today's 
leadership category, and that is why we are beginning at last 
to see some results of people investing in women in business, 
and women are not disappointing them.
    Senator Allen. Thank you.
    Ms. Boitel, do you have anything to add to that?
    Ms. Boitel. I would say that if you have read Tom Peters' 
list of what makes a successful businessperson, you will note 
that many of the characteristics are what would be considered 
feminine characteristics.
    I also would like to go back for a moment to a comment you 
made about, if women graduate from engineering school, the 
companies will be excited to hire them. I think that is 
absolutely true. The problem comes in when it comes time for 
advancement. They get to a certain point, and that is it, and 
if you look at the companies at the higher levels, you will see 
very few women.
    Thank you.
    Senator Allen. That is something to address.
    I have no further questions, and would only close by 
thanking all of you for your great leadership, and also your 
great insight. Hopefully, we will be able to assist in making 
sure everyone does have that opportunity. Congratulations for 
all your successes.
    Senator Wyden. And as you all go, just know that you have 
given us a lot to follow up on, and we are going to try to put 
some heat on these key institutions in our society: everyone 
from the Government agencies to the schools, to the news media, 
to private business organizations. I would really urge you to 
keep the heat on us, keep the heat on the Congress, and make 
sure that you see the kind of follow-through that you have got 
a right to expect.
    To me, the idea that there would be one hearing in the U.S. 
Senate in the last 20 years dedicated primarily to looking at 
this issue at a time when the need is so acute from the 
standpoint of national security, from the standpoint of the 
commercial needs of our society, is disappointing. Senator 
Allen and I represent many people in two of the States that are 
the most technology-sensitive in the country.
    We desperately need the skills of women in the hard 
sciences, and for the U.S. Senate to at last have taken this 
issue up in any degree of intensity several decades ago in the 
last century just is not good enough. So we are going to do our 
best to take what you have given us today and put some heat on 
these major institutions in our society to get them to change, 
and you put the heat on us and expect results.
    Just as you all talked about women expecting results, you 
have a right to expect results from your Government on this, so 
it has been an excellent hearing. Senator Allen and I will be 
tackling these issues as we have in so many instances in this 
session of Congress together, and we will excuse you at this 
time and look forward to working with you.
    The hearing is adjourned.
    [Whereupon, at 4:05 p.m., the hearing adjourned.]
  

                                  <all>

</pre></body></html>
